<html>
<title> - DEVELOPMENTS IN RWANDA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                         DEVELOPMENTS IN RWANDA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

                           Serial No. 114-133

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-691 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
               
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert P. Jackson, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     5
Mr. Steven Feldstein, Deputy Assistant Secretary of State, Bureau 
  of Democracy, Human Rights, and Labor, U.S. Department of State    12
Mr. David Himbara, coordinator for the USA and Canada, Democracy 
  in Rwanda Now (former aide to the President of Rwanda).........    31
Major Robert Higiro, RDF, Retired, coordinator for Belgium, 
  Democracy in Rwanda Now........................................    37
Ms. Sarah Margon, Washington director, Human Rights Watch........    44
Mr. Willis Shalita, photojournalist and blogger..................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert P. Jackson: Prepared statement..............     8
Mr. Steven Feldstein: Prepared statement.........................    15
Mr. David Himbara: Prepared statement............................    34
Major Robert Higiro, RDF, Retired: Prepared statement............    40
Ms. Sarah Margon: Prepared statement.............................    47
Mr. Willis Shalita: Prepared statement...........................    55

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Questions submitted for the record and responses 
  from:
  The Honorable Robert P. Jackson................................    74
  Mr. Steven Feldstein...........................................    75
  Major Robert Higiro, RDF, Retired..............................    77
The Honorable Mark Meadows, a Representative in Congress from the 
  State of North Carolina: Questions submitted for the record and 
  responses from:
  The Honorable Robert P. Jackson................................    78
  Mr. Steven Feldstein...........................................    80
  Major Robert Higiro, RDF, Retired..............................    82

 
                         DEVELOPMENTS IN RWANDA

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and I want 
to apologize for being a bit late. We did have some votes on 
the floor, so I appreciate your indulgence.
    Ladies and gentlemen, in 1994, as we all know, the east 
African nation of Rwanda experienced one of the most horrific 
genocides in modern times. An estimated 800,000 Rwandans, 
mostly ethnic Tutsis and moderates among the ethnic Hutus, were 
brutally murdered in a state-backed extermination campaign that 
lasted for months.
    Hutu-Tutsi tensions of course date back to colonial times 
when the Belgians created a superior class composed of Tutsis, 
shutting out Hutus from government jobs and higher education 
despite the Hutus comprising about 85 percent of the 
population. In 1959 and in 1960, tensions among the Hutus 
exploded in a campaign that left 20,000 Tutsis dead, and 
created about 300,000 Tutsi refugees.
    As with this earlier genocide, the international community 
watched largely from the sidelines during the 1994 genocide in 
Rwanda as the death toll rose from April until July of that 
year until the Rwanda Patriotic Front or RPF defeated the Hutu-
led government military. More than 2 million mostly Hutu 
refugees flooded into the Democratic Republic of the Congo, 
leading to continuing problems in that country. The RPF-led 
Rwanda Government has criticized the United Nations for 
sheltering Hutu participants in the genocide and for allowing 
them to arm in refugee camps.
    Over the years, the RPF has used the guilt of the 
international community as a shield to prevent criticism of its 
action. U.N. Ambassador Samantha Power referred to Ambassador 
Susan Rice and her colleagues in the Clinton administration in 
the 1990s as bystanders to genocide. She quotes Dr. Rice in the 
2002 book, saying, ``If we use the word `genocide' and we are 
seen as doing nothing, what will be the effect on the November 
congressional election?'' she asked. Part of Rice's team during 
those years was Gayle Smith, the current nominee to head the 
U.S. Agency for International Development.
    As far back as May 1998, I chaired a hearing, and I chaired 
many hearings on the genocide, but this one included testimony 
about the willful U.S. neglect in preventing the Rwandan 
genocide. As recounted in an issue of the New Yorker magazine 
at the time, a high-ranking Rwandan informant had warned the 
U.N. leadership including Kofi Annan--and we actually had a 
hearing on the famous facts that was sent, and we had the 
reporter who broke that story, at a hearing--and the United 
States about preparations for killing 3 months before they 
actually began. And we all will recall that the U.N. 
peacekeepers had actionable information that went unacted upon. 
Furthermore, the United States has been accused not merely of 
inaction, but also of obstructing preemptive multilateral 
efforts to quell the crisis. Some have alleged that in the 
words of Refugees International president Lionel Rosenblatt, 
who also testified at my hearings and he said, and I quote in 
pertinent part, ``The ball was not only dropped by the United 
States, it was blocked by the United States.''
    Paul Kagame, now President of Rwanda, was hailed as one of 
``Africa's new leaders'' by Dr. Rice and her team during the 
1990s and there has been no apparent change in their high 
opinion of him since then despite what Deputy Assistant 
Secretary Robert Jackson describes in several public 
administration statements related to human rights concerns and 
the ongoing dialogue with the Rwandan Government.
    As a matter of fact, Secretary Jackson, that frankly and 
that you very clearly and unambiguously point out that 
activities that are seen by the government as possible threats 
of national security or the political dominance of the 
governing RPF are often met with intolerance and harsh 
punishments. And you point out again, over the past year 
Rwandans have quietly reported the disappearances and suspected 
deaths of family members at the hands of the Rwandan security 
services. These reports as you go on to say come from a wide 
cross-section of Rwandan society cutting across geographic, 
socioeconomic, and ethnic lines.
    In the human rights report it is clear, though a little bit 
ambiguous the way it is written, it says there are fewer 
reports of disappearances and politically motivated abductions 
or kidnappings than in previous years. But local human rights 
organizations ceased investigating disappearances in 2012 after 
reporting pressure from the government officials, including 
threats and allegations of treason.
    President Kagame, I would go on to say, has been considered 
a hero on the international stage and has long been immune, and 
I say this regrettably, to public criticism. However, human 
rights reports about abuses in Rwanda have grown over the 
years. And as I just quoted, there was much had been said by 
our Deputy Assistant Secretary and others within the 
administration.
    In recent years there have been credible reports that the 
RPF government has commissioned assassins to kill dissidents 
living in exile who criticize the government or attempt to form 
political associations or parties.
    Several years ago, our Committee Chairman Ed Royce and I 
were told face to face by Paul Rusesabagina of Hotel Rwanda 
fame that the Rwandan Government had targeted him and was 
behind several attempts on his life in Belgium. I mean people 
can snicker and laugh, but frankly he told us that and he was 
very worried about his own personal safety.
    In early 2014, former Rwanda intelligence chief Patrick 
Karegeya who had been living in exile in South Africa was found 
murdered in his hotel room in Johannesburg. Karegeya was one of 
two dissidents one of our witnesses today, former Rwandan Major 
Robert Higiro, says he was asked to have killed. He was asked 
to be the assassin. The assassination plot, he revealed, was 
investigated and substantiated in a series of articles in 
Canada's Globe and Mail newspaper, which interviewed Rwandan 
exiles in South Africa and in Belgium.
    Since 2012, this subcommittee has held a series of hearings 
on the violence perpetuated by various militia in eastern DRC. 
Perhaps the best known of them, the so-called M23, was 
supported by Rwanda. This Congress has enacted restrictions on 
some military assistance to Rwanda in response to its 
involvement in militia activity in the DRC and involvement in 
resource smuggling from that country, as uncovered in several 
U.N. reports.
    These charges of serious human rights and other abuses 
would be troubling in any case, but Rwanda is country that has 
enjoyed significant U.S. and international support. By largely 
avoiding criticism of Rwandan human rights issues, the Bush and 
Obama administrations raised assistance to Rwanda from $39 
million in 2003 to $188 million. And some of it is for very 
laudable goals, like U.N. peacekeeping and some of the health 
initiatives including food security. But again, some of it has 
been for other issues.
    Rwanda's economy, due to donor aid, political stability and 
favorable investor policies, has grown by an average of 8 
percent over the last decade. Yet donors began reducing or 
redirecting funds in 2012 because of Rwanda's role in 
supporting M23. The growing reports of human rights abuses also 
are leading to caution among donor nations about directly 
supporting the Rwandan Government. And this hearing is to go 
into focus on that.
    We have two very distinguished witnesses I will introduce 
shortly. I would like to yield to our distinguished Ranking 
Member Karen Bass.
    Ms. Bass. Thank you, Chairman Smith, for your leadership 
and for holding today's hearing on Developments in Rwanda, 
providing us the opportunity to discuss the nation's 
challenges.
    While Rwanda is geographically a small nation, its 
condition and role in the stability of the Great Lakes region 
is critical. I would also like to thank our distinguished 
witnesses today, including Ambassador Jackson and Steve 
Feldstein from the Department of State as well as several 
members of the Rwandan diaspora and the international human 
rights community. I look forward to hearing your varied 
perspectives on both the successes and challenges of 
developments in Rwanda.
    As I often say, Mr. Chair, there are lots of challenges on 
the continent of Africa and I am always concerned that focusing 
on those challenges while very important it is also important 
to talk about where there have been some developments. And part 
of the irony of Rwanda in just two decades since the tragic 
events of the 1994 genocide, the economy has been a bright spot 
on the continent and has maintained steady growth every year. 
According to the World Bank, Rwanda is on track to meet most of 
the MDG goals by the end of 2015. And I know reports are that 
the poverty rate has dropped. From a business perspective, 
Rwanda is often considered one of the easiest places to do 
business in sub-Saharan Africa.
    One of the things that has always been interesting to me is 
as I have received many international delegations and many 
delegations from Africa is that Rwanda has made incredible 
strides in empowering women to occupy seats in government. In 
recent years the Parliament has grown to include an almost two-
thirds majority of women as they hold 64 percent of the seats 
in Parliament.
    But with all of this, the Rwandan Government has also faced 
accusations from many in the international community of being 
authoritarian and heavy-handed in its repression, of dissent 
and political opposition. This repression has included threats 
to journalists, detainment of political opponents, and even the 
killing of political dissenters.
    In view of both the spectacular economic and development 
gains in Rwanda and the international community's concerns over 
human rights and freedom of speech, association, and assembly 
in the country, I hope that today's discussion will help to 
illuminate the challenges in Rwanda and also perhaps provide a 
pathway forward for where U.S. foreign policy should go. And I 
yield back.
    Mr. Smith. Thank you, Ms. Bass. I would like to now 
introduce our first two very distinguished witnesses beginning 
with the Acting Assistant Secretary of State for African 
Affairs, Robert Jackson. Ambassador Jackson previously served 
as Ambassador to Cameroon as well as Deputy Chief of Mission 
and Charge at the U.S. Embassies in Morocco and Senegal.
    He also served at U.S. Embassies in Burundi, Zimbabwe, 
Portugal, and Canada. At the State Department headquarters he 
has worked in the commercial and consular sections and 
conducted officer training. He has also performed oversight 
work in the Office for the Promotion of Democracy and Human 
Rights after 9/11. Ambassador Jackson has appeared before this 
subcommittee several times and we are always appreciative of 
his insights and his recommendations.
    Then we will hear from Mr. Steven Feldstein who is the 
Deputy Assistant Secretary of State in the Bureau of Democracy, 
Human Rights, and Labor and is responsible for its work in 
Africa on international labor affairs and international 
religious freedom. Previously Mr. Feldstein served as director 
of the Office of Policy in the Bureau for Policy, Planning, and 
Learning at USAID and served as counsel on the Senate Foreign 
Relations Committee where he oversaw a portfolio that included 
oversight of all U.S. foreign assistance agencies, budgets and 
programs, State Department management operations, and 
international organizations.
    Mr. Ambassador, the floor is yours.

STATEMENT OF THE HONORABLE ROBERT P. JACKSON, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Jackson. Mr. Chairman, Ranking Member Bass, 
thank you very much for this opportunity to discuss U.S. 
efforts to support the Rwandan Government and people as they 
continue rebuilding their political, economic, and social 
structures following the 1994 genocide. In the interest of 
respecting the subcommittee's time, Mr. Chairman, I would like 
to submit a longer version of my testimony for the record, 
which you have, and just read a shorter version.
    Mr. Smith. Without objection so ordered.
    Ambassador Jackson. For Rwanda, as for many countries in 
Africa, our policy is built around four interdependent and 
mutually reinforcing objectives--one, to strengthen democratic 
institutions; two, to spur economic growth, trade, and 
investment; three, to advance peace and security; and four, to 
promote opportunity and development. Rwanda has made enormous 
strides in spurring economic growth and promoting development 
while we continue to encourage further progress in ensuring 
that Rwanda plays a constructive role in the region and 
respects human rights and democratic principles.
    Let me first talk about Rwanda's economic and development 
successes. Rwanda has become a model of inclusive economic 
growth and a world leader in leveraging development assistance 
into socioeconomic gains for the vast majority of its people. 
The United States and Rwanda share the belief that trade, 
investment, technological development, and market forces are 
keys to Rwanda's long term economic development. The commitment 
of the United States to supporting Rwanda's economic and social 
development is strong. USAID assistance to Rwanda's education 
sector more than doubled from Fiscal Year 2012 to present, and 
many American companies and community service organizations 
have started operations in Rwanda in recent years.
    We have been proud to partner with Rwanda in the last 
decade as its economy has grown an average of over 7 percent 
per year, as its infant and child mortality rates have been 
halved, and as HIV and malaria rates have been reduced 
dramatically with help from the President's Emergency Fund for 
AIDS Relief, PEPFAR, and the President's Malaria Initiative 
(PMI), respectively.
    With regard to Rwanda's contribution to regional peace and 
security, I would highlight that Rwanda is one of the world's 
most active and effective U.N. peacekeepers, the fifth largest 
contributor of troops in the world, despite its small size and 
population. Its peacekeepers serve in many of the world's most 
complicated conflicts including the Central African Republic, 
South Sudan, and Darfur, and frequently distinguish themselves 
by a willingness to take strong actions to protect civilians 
under imminent threat of violence.
    We have recognized Rwanda's leading role in peacekeeping 
through its designation as a priority partner in President 
Obama's Africa Peacekeeping Rapid Response Partnership. At the 
same time, we continue to encourage Rwanda to play a 
constructive role in in the Great Lakes region, and we were 
pleased when Rwanda ended its support to the M23 rebellion in 
eastern Democratic Republic of the Congo (DRC) and supported 
the Nairobi declarations that ended that conflict.
    We share Rwanda's continued concerns over the presence in 
eastern DRC of the Democratic Forces for the Liberation of 
Rwanda, or FDLR, the armed group, and we are encouraging the 
DRC Government, together with the U.N. peacekeeping operation 
MONUSCO, to carry out effective counterinsurgency efforts 
against this abhorrent armed group.
    In the current crisis in Burundi, we have urged all 
countries in the region, including Rwanda, not to take 
unilateral actions and to work through multilateral frameworks 
to support a peaceful resolution to the internal conflict 
stemming from Burundian President Nkurunziza's decision to seek 
a third term in violation of the Arusha Accord.
    Unfortunately, however, Rwanda's record of building 
democratic institutions and ensuring full respect for human 
rights is mixed. In response to and to protect against further 
destructive cycles of mass violence, the Rwandan Government has 
developed a strong state with an intense commitment to internal 
safety and security, national unity, and socioeconomic 
development. As a result, on the positive side, Rwanda is a 
country with low corruption and a strong record for combating 
not only corruption but demanding high accountability and 
performance from its public officials as well as ensuring 
prosecution for those who break the law. Violent crime rates 
are extremely low and have been dropping consistently over the 
last decade.
    Rwanda is a leader in combating trafficking in persons, 
having put in place a comprehensive nationwide anti-trafficking 
plan that it is aggressively implementing with NGOs and 
partners. Rwanda is also a leader in promoting the rights of 
disabled persons, and especially for elevating women to 
positions of leadership in government.
    As Congresswoman Bass noted, 63 percent of its Parliament 
is female, thus Rwanda boasts the highest number of women 
lawmakers anywhere in the world. And the rights of LGBTI 
persons are respected.
    There is also another side to the security coin, however. 
Activities that are seen by the government as possible threats 
to national security or the political dominance of the 
governing Rwanda Patriotic Front, or RPF, are often met with 
intolerance and harsh punishment. In some of these cases 
suspected wrongdoers are submitted to the Rwandan judicial 
system in a transparent manner, but in other cases they are 
not. Over the past year, Rwandans have quietly reported the 
disappearance and suspected deaths of family members at the 
hands of the Rwandan security services. These reports, as you 
noted Mr. Chairman, come from a wide cross-section of Rwandan 
society cutting across geographical, socioeconomic, and ethnic 
lines.
    In recent years domestic human rights organization have 
found it increasingly difficult to monitor and report on human 
rights violations and abuses. Among international human rights 
organizations, only Human Rights Watch maintains a permanent 
presence in Rwanda. Its staff report surveillance and 
occasional harassment by government officials and security 
services. Restrictions on press freedoms in Rwanda continue to 
be a serious concern. Human rights concerns are part and parcel 
of our ongoing dialogue with the Rwandan Government, however.
    We are concerned that political competition in Rwanda 
continues to be limited. There are 11 registered political 
parties, however, ten are aligned with the ruling RPF in a 
government of consensus. Only one, the Democratic Green Party, 
which advocates for policy alternatives and has taken a 
position against the removal of term limit positions in the 
constitution, has no seats in Parliament. We believe democracy 
is strengthened by inclusive political processes and active 
debate between parties and citizens. We continue to encourage 
the Rwandan Government to ensure protection of political 
freedoms particularly in the lead up to elections.
    The upcoming 2017 Presidential election will be pivotal for 
Rwanda's future. Our consistent message to President Kagame and 
the Government of Rwanda, as it has been with other leaders in 
Africa facing elections, is that political space should be open 
to opposition parties that embrace peaceful democratic dialogue 
and transition. This includes ensuring freedom of expression, 
press freedoms, the ability of citizens to criticize the 
government and ruling party, and the ability of all to campaign 
freely for the candidates and causes they believe in.
    We also believe that neither parties nor individuals should 
seek to change constitutions to extend their terms in office 
for personal or political gain. This is a principle that we 
uphold throughout the world. As we are sadly witnessing in 
Burundi, there are serious negative consequences when one group 
limits the ability of others to participate fully in the 
political process. In our view, the best way to ensure long 
term stability and prevent violence is by making sure that all 
peaceful voices are allowed to speak and be heard.
    So while we applaud Rwanda's great development success, we 
should not ignore the need for strong and transparent 
democratic institutions that will lay the foundation for long 
term stability and economic growth. As Rwandans have shown by 
building a strong and dynamic country over the course of two 
decades, they have the ability to meet difficult challenges 
beyond all expectations. We will continue to work in 
partnership with Rwanda to help it build the prosperous and 
democratic country that Rwandans seek. I thank the 
subcommittee.
    [The prepared statement of Ambassador Jackson follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you so much for your 
testimony. Mr. Feldstein?

 STATEMENT OF MR. STEVEN FELDSTEIN, DEPUTY ASSISTANT SECRETARY 
 OF STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
                      DEPARTMENT OF STATE

    Mr. Feldstein. Thank you, Chairman Smith, Ranking Member 
Bass. Thank you for holding this important hearing. I know it 
has been several years since the committee last held a 
dedicated hearing on Rwanda and I appreciate the opportunity to 
speak today. Like Ambassador Jackson, I have a longer version 
of testimony for the record I would like to submit.
    Mr. Smith. Without objection, so ordered.
    Mr. Feldstein. Great. Rwanda holds a very personal 
connection for me. Fifteen years ago I first went to Rwanda as 
a fellow with the International Rescue Committee. I spent a 
year in the country supporting its efforts to recover from war 
and genocide. Living in Rwanda had a profound impact on me. It 
has been a key inspiration for my decision to pursue a career 
in foreign policy and human rights.
    Rwanda's progress since the 1994 genocide has been 
remarkable. With an annual growth rate that has averaged 7 
percent, with 1 million people removed out of extreme poverty, 
with having achieved close to 100 percent primary school 
enrollment, and with infant mortality down over 60 percent 
since 1990, the accomplishments have been significant. Several 
years ago I paid a return visit to Kigali and I found a city 
profoundly changed. Modern office towers have replaced 
dilapidated buildings, the streets were spotless thanks in part 
to a widely acclaimed ban on plastic bags, new businesses seem 
to be springing up daily such as coffee ventures supplying top 
quality beans to U.S. brands like Starbucks and Peet's.
    But this is only part of the story. Alongside Rwanda's 
development progress there have been equally consistent efforts 
to reduce space for independent voices and to diminish the 
ability of the media, opposition groups and civil society to 
operate. This space matters. It is essential not only for 
democratic progress but for cementing Rwanda's impressive 
economic and development gains.
    We see three key trends in Rwanda's human rights situation. 
First, political space in Rwanda and the overall human rights 
environment continues to shrink. Second, this trend is 
reinforcing the wrong lessons for Rwanda, particularly that a 
country can continue to experience robust economic growth and 
foreign investment even while repressing its citizens further 
and reducing democratic space. This is not a sustainable path. 
At some point, if unchecked, human rights violations will begin 
to affect Rwanda's economic performance, stability, and foreign 
investment. Third, Rwanda's human rights record is setting a 
disturbing precedent for the region and continent. Other 
countries are carefully watching Rwanda's model of economic 
liberalization and political repression. My counterparts 
frequently point to Rwanda and question whether protecting the 
rights of their citizens matters if they can achieve 
substantial economic development.
    The answer of course is that protecting the rights of all 
of Rwanda's citizens and residents matters immensely to 
Rwanda's long term stability and prosperity, to its continued 
positive economic trajectory, and to whether other countries 
recognize they can follow a similar path to greater prosperity. 
Rwanda can be a model for the region, or it can slip backwards 
over time never truly fulfilling its potential.
    We have articulated our concerns about Rwanda's human 
rights record for many years directly to Rwanda's senior 
leaders, including President Kagame, and we have highlighted 
Rwanda's deteriorating situation through the State Department's 
annual human rights report. The Department's 2013 report for 
Rwanda noted that the government harassed, arrested and abused 
political opponents and human rights advocates, disregarded the 
rule of law, and placed significant restrictions on freedom of 
expression, peaceful assembly and association, and the press. 
It also highlighted reports that arbitrary or unlawful killings 
took place both inside and outside Rwanda.
    The credibility of elections provides an important 
indication of the level of space for independent voices and 
views. Unfortunately, Presidential elections in 2010 and 
parliamentary elections in 2013 were beset by irregularities 
both in the pre-electoral period and on election day. This 
includes suppressing and denying registration to opposition 
parties, security officials present at polling booths, multiple 
voting, and local election officials filling out ballots in the 
absence of voters. Rwanda's next Presidential election is in 
2017, and we are cautiously hopeful that this election will 
mark an improvement upon previous contests.
    Our concerns about restrictions and fundamental freedoms 
extend beyond electoral processes. The U.S. has expressed deep 
concern about the arrest and disappearance of dozens of Rwandan 
citizens as well as credible reports that individual 
journalists are being threatened and sometimes directly 
censored. Rwandan journalists routinely self-censor their work 
and some journalists have been detained or threatened for 
reporting deemed to be critical of the government.
    Last year, the Rwandan Government shut down the BBC 
Kinyarwanda broadcast because of a controversial documentary 
about President Kagame and the genocide. We are concerned that 
since establishing the Rwanda Media Commission as an 
independent body the government has interfered with its work, 
undermined its role as a sole regulator of media content, and 
at times threatened commissioners. We are also deeply troubled 
by what appears to be politically motivated murders of 
prominent Rwandan exiles. This includes the December 2013 
killing of former Rwandan Government official Colonel Patrick 
Karegeya who was found dead in a hotel room in South Africa. 
Months later, armed men raided the south African home of former 
Rwandan Army Chief of Staff Kayumba Nyamwasa who had been 
previously targeted for assassination attempts. President 
Kagame's 2014 statements about consequences for those who 
betray Rwanda has further heightened these concerns.
    Also of deep concern are dozens of corpses, some bound and 
wrapped in sacks, that appeared in Lake Rweru along the border 
between Rwanda and Burundi in 2014. Four of those bodies were 
recovered and buried in Burundi. Fishermen reported that on two 
separate nights in September, Rwandan Marines attempted to 
exhume the bodies, allegedly to return them to Rwanda. In 
December, Burundi accepted an offer of forensic assistance 
funded by the U.S. and several other donors for an African 
Union-led investigation into the four recovered bodies. Rwandan 
officials stated the government also supported a joint 
investigation, but no investigation has been conducted. The 
U.S. continues to press the African Union to move forward with 
an investigation and accountability for those responsible.
    Rwanda is an important ally. It is a respected contributor 
to peacekeeping missions, it has rebuilt itself from genocide, 
and it has achieved impressive development and economic gains. 
I believe there is a bright future ahead for its people, which 
is why Rwanda's current human rights situation is so personally 
disappointing to me. Ensuring respect for freedoms of 
expression, association, and peaceful assembly, and respect for 
the rule of law are essential for cementing and building from 
these gains. The United States will continue to urge Rwanda to 
respect the rights of all its citizens. Thank you very much and 
I welcome your questions.
    [The prepared statement of Mr. Feldstein follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony and for 
being so thoroughly candid about your personal as well as 
professional disappointment when it comes to the human rights 
situation as practiced by the Rwandan Government.
    Let me just ask you. One of our witnesses who will be 
testifying, Robert Higiro, was in the military for a number of 
years, and he was interviewed by General Dan Munyuza, who is 
the director of military intelligence, who said, we have 
decided to give you this job--kill General Kayumba, and the 
colonel you just mentioned, Karegeya, who died of course, and 
you mentioned that in your testimony as you concluded.
    And I am wondering, in a couple of days a Bishop Romero 
will be beatified by Pope Francis who was killed by all 
indications by a right wing death squad in El Salvador. I 
remember I had a meeting with President Duarte during the fight 
when the fight was between the FMLN and between the government, 
and I for one was one of those who believed passionately in 
strong human rights conditionality, and it was contrary to the 
Reagan administration. They didn't want it.
    And I asked President Duarte about that, about the 
conditionality, and frankly in an absolute moment of candor, 
and refreshing candor, he said keep the human rights 
conditionality. Because there were people, I gleaned from that 
conversation, even within his own government that he did not 
have confidence in or trust for. But there is concern that when 
it comes to Kagame how high up does this go? Does it go to his 
level? And when I interviewed and spoke to Robert, who again 
will be testifying shortly, I asked him about that and the 
answer, and he will tell it in his own words, was not a good 
one in terms of complicity, if not outright direction, from the 
very top when it comes to death squads, which both of you in 
your testimonies have brought great, I think, focus upon. And I 
thank you again for that candor.
    It is great to be providing troops for peacekeeping and it 
is great to have an economic model that seems to be flourishing 
for some, but I think as you pointed out, the human rights 
record is setting a disturbing precedent for the region and the 
continent. That is very much of an indictment. What we all 
hoped would be a turning of the page seems to be turning in the 
opposite direction, and that was again your, Mr. Feldstein, 
testimony just a moment ago.
    So I wonder if you could tell us, have you tried to 
interview Mr. Higiro? He is here, if not now in the near 
future. He certainly has been very prominent and I think he 
lives in some concern of a potential death squad coming after 
him, and I say that with great sadness.
    The others that you mentioned in your testimony, Mr. 
Ambassador, which I thought was excellent, we expressed concern 
in January of 2014 about the succession of what appeared to be 
politically motivated killings of government critics in exile, 
then you went through a whole long list. I am wondering, when 
we raise that with Paul Kagame what is the response? Is it 
denial? Is it we are committed to tracking down who committed 
these extrajudicial killings, like in South Africa when they 
tracked the colonel down.
    What has been the response, and could you provide those 
responses for the record if you don't have it with you today? I 
would love to who is currently as I said the acting 
administrator assistant I should say. He see them. And how high 
up does it go? I mean, death squads are death squads and when 
people are killing critics we have to be absolutely clear that 
there is a penalty from our point of view to that kind of 
behavior. Mr. Ambassador?
    Ambassador Jackson. Thank you, Mr. Chairman. Allow me to 
address your second and third questions. As for Mr. Higiro, the 
State Department has certainly had contact with him. He is well 
known and we will continue contacts with him. As for President 
Kagame----
    Mr. Smith. Before you leave that, did you find him 
credible? Were you able to take any of that information? Was it 
actionable? He has tape recordings that he shared with a 
Canadian newspaper which seems to make a very clear case that 
they attempted to hire him to do an assassination. He turned it 
down, not just one but two, again putting his life at peril. 
Did you hear those recordings yourself?
    Ambassador Jackson. I have not heard the recordings, Mr. 
Chairman, and----
    Mr. Smith. Anybody at State?
    Ambassador Jackson. I believe people at State have. Mr. 
Feldstein may have more information about that.
    Mr. Feldstein. I don't have personal information on this 
specific case. I can say in general we have looked at a number 
of the different allegations that have been mentioned in 
testimony today and we do find a significant amount of those to 
be credible, enough to warrant further discussion.
    Mr. Smith. What is the response from Paul Kagame?
    Ambassador Jackson. So I think President Kagame has been 
very clear in his public and private statements and they have 
been consistent that he is very concerned about people who he 
sees in opposition. He appears to distrust any political 
dissent and freedom of speech and fears another genocide, Mr. 
Chairman, which does not in and of itself justify repression, 
but it is certainly reflective of his mindset.
    Mr. Smith. But in no way is a suitable excuse----
    Ambassador Jackson. I agree.
    Mr. Smith [continuing]. For killing people. Will you 
interview our witness in the next panel?
    Ambassador Jackson. I will make certain that my colleagues 
renew their contacts with him, Mr. Chairman.
    Mr. Feldstein. Thank you, Mr. Chairman. I would just add, 
in terms of how far high up does it go and what are we looking 
at when it comes to decision making, I think a lot of that is 
still somewhat opaque, but I think one of the points that we 
mention is the fact that there have been statements attributed 
to President Kagame publicly that does talk about the threat 
inherent to certain actors in terms of what they say and how 
that affects the country. So I think the rhetoric has been 
dangerous.
    And I think the other thing that we do recognize is that in 
terms of how Rwandan Government and the military is organized 
it tends to be a fairly tightly controlled group that has very 
close links to the very top. And so we can make some 
assumptions that there is at least some knowledge of some of 
the actions that have been documented in the human rights 
reports and so forth.
    Mr. Smith. Is there any evidence or is there any suspicion 
on the part of the State Department that it is coming from the 
top? I mean it almost begs credulity that somehow he is not 
aware of it and perhaps not even directing it.
    Ambassador Jackson. Mr. Chairman, I think there is a lot of 
credible evidence suggesting that President Kagame is aware of 
that. Whether he is ordering it or not is not entirely clear, 
but certainly he is aware of it and awareness means he should 
act upon it.
    Mr. Smith. And he has not.
    Ambassador Jackson. And to my knowledge he has not.
    Mr. Smith. Chairman Royce asked that I ask you a couple of 
questions with regards to VOA in Rwanda. He sent a letter a 
couple of weeks ago to the Broadcasting Board of Governors, 
BBG, expressing deep concern over their plan to end VOA local 
language broadcasts in Rwanda. And he asked that I ask you, 
does the State Department believe radio to be a powerful news 
medium in Rwanda? Does State support the closure of VOA local 
language broadcasts there? And do you believe the remaining 
broadcasts in English and French will reach a broad audience 
given the fact that a large majority still speak Kinyarwanda?
    Ambassador Jackson. Mr. Chairman, the State Department 
strongly supports continuation of the broadcasts in Kinyarwanda 
and Kirundi. We believe that they are very useful, particularly 
with the closure of the British Kinyarwanda service submissions 
to Rwanda, and we hope that we can work with the Broadcasting 
Board of Governors and this committee to ensure the 
continuation of those broadcasts.
    Mr. Feldstein. Yes, Mr. Chairman, I would echo those 
sentiments extremely strongly. I think with the closing of the 
BBC Kinyarwanda Service this is the last international service 
available to a large portion of Rwandans that is broadcasting 
Kinyarwanda that they can access and have information, 
especially as we lead up to some very critical milestones 
including the 2017 elections. So I think it is extremely 
important to allow that access to information especially given 
the fact that local sources are more and more self-censored if 
not directly censored.
    Mr. Smith. Let me ask you. The South African Government has 
taken legal action against alleged assassins. Have any other 
governments taken a legal approach in response to killings of 
Rwandans abroad? For example, have the Belgians reacted in any 
way?
    Ambassador Jackson. Not to our knowledge, Mr. Chairman. But 
the South African investigation of the murder in the hotel room 
continues.
    Mr. Smith. Let me just ask you. If again Kagame is at least 
acquiescing to if not directly complicit in these 
assassinations and attempted assassinations what would that do 
to our response to his government and to him personally?
    Ambassador Jackson. We are constantly reviewing our 
relations and possible sanctions against leaders who violate 
human rights. And Mr. Chairman, I want to be on the record 
saying that in terms of our cooperation with the Rwandan Armed 
Forces and security services we ensure that they are vetted in 
compliance with the Leahy laws for not having committed gross 
violations of human rights.
    Mr. Smith. But how does that pan out when the director of 
intelligence and other high ranking military people appear to 
be complicit in these killings?
    Ambassador Jackson. The appearance of complicity is the 
issue, Mr. Chairman, and we are continuing to look into it.
    Mr. Smith. Do we have a task force or a very dedicated 
group of people trying to ferret out the information on this? 
Because it seems to me this cries out, I mean if he is involved 
with this or again acquiescing to it or in any way complicit, I 
mean these are serious crimes.
    Mr. Feldstein. Yes, Mr. Chairman, I think in terms of at 
least how the connection between the allegations of gross 
violations of human rights and the assistance that we provide 
to Armed Forces we go through a very stringent vetting process. 
Every name that either potentially will receive some type of 
assistance or units that will receive assistance go through a 
screening process that is done by a team of people both through 
posts as well in Washington. It goes through a database, and so 
far the names that have been submitted have proven to be clean. 
I do think that when it does come to some of the allegations 
that are mentioned, I don't think they extend extremely widely 
into the broader Armed Forces.
    I do think that they tend to be probably more localized in 
a smaller cohort of people, but we do take very seriously every 
single allegation and we are making sure to be very vigilant 
about ensuring that the assistance that we provide on the 
security side does conform to Leahy requirements.
    Mr. Smith. Again I hope when all the information is out, if 
he is clean, let us ascertain that. But if he is not and we are 
unwittingly aiding and abetting him that would be a, and we 
have done that before under administrations of both Republicans 
and Democrats.
    And what I am suggesting is that there needs to be a very 
aggressive look to see what his complicity is with regards to 
these extrajudicial killings. And you only have to intimidate 
so many people to get everyone else to toe the line or at least 
mute, and we know that with human rights groups not being 
there, except for perhaps Human Rights Watch, that the 
reporting becomes less robust because it is that much harder to 
come by, people are less willing to talk. It has a chilling 
effect, I would think, on the real snapshot of what is truly 
going on in Rwanda.
    I would just ask, Mr. Ambassador, you were somewhat 
effusive when it came to trafficking and their record in 
combating human trafficking. I know they have a national plan. 
I have seen it. But my information suggests that last year they 
were designated Tier 2 watch list, and you might recall I wrote 
that law, the Trafficking Victims Protection Act. I wrote the 
watch list provision which we put in not as a parking lot, but 
as a between, on the bubble between an egregious violator as 
well and those who have a problem and they are trying to take 
some action.
    I don't see much change from last year to this when it 
comes to investigations and actions, when it comes to 
penalties, people getting jail sentences. You can do a lot to 
put a superficial gleam on with a national plan, but if you 
don't get people who are going to jail and getting real jail 
time, breaking up brothels--and as you know, the opening 
statement in the TIP Report couldn't be more condemning that 
Rwanda and forced labor, sex trafficking and it goes on, about 
some of these people are exported to other countries like 
commodities.
    I just hope that--and I know there is always a battle 
between the TIP office and the bureaus--that when it comes to 
the designation we will not err on giving Kagame a pass, but we 
will say exactly what is happening on the ground in real terms 
not in superficial terms, in terms of having a plan and saying 
we are doing this and doing that when in reality it is not 
being done. I just would urge you, just speak truth to power. 
What you do in terms of the penalty phase which we wrote into 
the law, that shoe drops later. That is largely up to you if 
not exclusively up to you.
    But getting it right, they are on the Tier 2 watch list now 
and that is like a thread, I should say, an inch away from 
being an egregious violator as a Tier 3 country. Mr. 
Ambassador.
    Ambassador Jackson. Mr. Chairman, the tier and the overall 
trafficking report for 2014 are still being finalized so 
decisions about rankings have not yet been made. However, I can 
tell you, absolutely, that there have been prosecutions. There 
has been a real effort at protection. We understand that more 
than 3,000 children and women have received benefits of 
services provided by the Rwandan Government and centers for 
women who have been the victims of gender based violence and 
children who have been in conflict. I am confident that will be 
reflected in the report and I believe statistics about 
prosecutions will show the trend.
    I would say that I think what is significant in terms of 
trafficking in persons is that the Rwandan Government has 
ceased its support for M23 and therefore for M23's child 
soldiering, and I feel it is important to recognize that. That 
is a significant change from years past.
    Mr. Smith. I don't think that should give them an enhanced 
ranking, I mean that was so egregious that they were backing 
M23 that it defies that they got away with it for as long as 
they did. And Rwanda as you know does not offer trafficking-
specific aftercare for survivors and that is a very serious 
omission, I would respectfully submit, on their part. I am 
hoping that my distinguished friend and colleague Ms. Bass, she 
wanted to ask some questions, will be returning shortly.
    Again just to reiterate in a way, you will interview I hope 
our witness as he comes forward in the next panel. And if you 
could get back to us what Kagame's reaction to our protests, 
and I assume demarches. Have we gotten to that point where we 
demarche him on the extrajudicial killings? How have we 
conveyed our displeasure over these killings, assassinations?
    Ambassador Jackson. Mr. Chairman, I was in a meeting with 
President Kagame last summer on the margins of the U.S.-Africa 
Leaders Summit. I can assure you that we raised our human 
rights concerns with him forthrightly.
    Mr. Smith. And did we do it with specific names of murdered 
individuals and for a clear explanation as to what their 
understanding of it is and whether or not they were complicit 
in any way? I expect a denial on the complicity part, but it is 
not until certain colonels and certain people are being 
indicted and convicted that we can take seriously that they are 
against extrajudicial killings.
    And that is exactly what we argued in the '80s with the 
FMLN and the Duarte government. Okay, where are the 
convictions? How many people have you grabbed and put behind 
bars for slaughtering people including Archbishop Romero, and 
my understanding is the killers have never been found on that 
case. So do you get down to that level?
    Ambassador Jackson. We do not usually get to that level, 
Mr. Chairman. However, the human rights report documents in 
great detail individual cases, and I will defer to my colleague 
here about the release of the next human rights report. But I 
believe it is imminent.
    Mr. Feldstein. Yes, we intend to make an announcement in a 
short period about the release of the human rights report. 
Really, at this point it has just been a matter of finding the 
right moment in the Secretary's schedule to allow that to 
happen given the importance that we have placed with having him 
actually deliver this year's report.
    Mr. Smith. And could you give me your assurance that you 
will interview Mr. Higiro and have your relevant staff if 
necessary listen to those recordings? Because they are 
devastating.
    Mr. Feldstein. Yes, absolutely. I will take that back to my 
colleagues and we will make sure that they connect with them.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Thank you very much, Mr. Chair. You were probably 
aware, Ambassador Jackson, that a few weeks ago I was involved 
along with Chairman Royce and probably Chairman Smith as well 
in expressing concerns over the VOA. And I was just wanting to 
know if you could comment about that especially if, what you 
think about that whether or not we will be able to keep VOA 
open and on the air in Rwanda.
    Ambassador Jackson. Congresswoman Bass, as I said to 
Chairman Smith, I want to assure you that we believe VOA's 
broadcast in Kinyarwanda and Kirundi provide an enormous 
service. They are the only source of outside information in 
local languages for many of the people who listen to them, and 
we strongly support their continuation.
    Ms. Bass. Well, with that maybe you could talk about kind 
of where we are in our relationship with Rwanda. The thrust of 
U.S. funded programs to increase civil society, what is the 
dialogue? I mean it is often said in these hearings that we 
send messages to the government about one subject or another, 
but it is not really clear what the response back is. And I 
believe Chairman Smith was asking you questions along those 
lines when unfortunately I had to leave. But it is one thing 
that we send messages, what are the messages back?
    Ambassador Jackson. So for Fiscal Year 2015, we have set 
aside $2 million for programs on rule of law and civil society 
strengthening.
    Ms. Bass. So tell me what that means. Give me an example.
    Ambassador Jackson. So I don't know. Let me give an example 
from another country because I don't have the facts for Rwanda 
in front of me. But for civil society strengthening in 
Cameroon, where I was last posted overseas, we brought in 
Freedom House to do seminars training to help the civil society 
groups do fundraising. And one of the really remarkable results 
of that was that the civil society groups decided to form their 
own coalitions, because one of the struggles that we have had 
in Cameroon has been that civil society has been so fractional 
and divided.
    So our goals in these programs are to bring people to 
together to advocate for common causes, and I would envision 
the same type of program in Rwanda. As for rule of law 
programs, across Africa we are working with judiciaries to help 
them to be stronger, more organized, more independent and----
    Ms. Bass. Is that accepted in Rwanda?
    Ambassador Jackson. I would have to get back to you on 
that. And I would like to defer to my colleague on some of 
DRL's programming, if I may.
    [The information referred to follows:]
   Written Response Received from the Honorable Robert P. Jackson to 
     Question Asked During the Hearing by the Honorable Karen Bass
    In its new Strengthening Participation and Accountability (SPA) 
program, USAID has identified specific themes for which it seeks 
proposals from local civil society organizations to strengthen systems 
and processes to ensure rule of law, strengthen the role of civil 
society in development, and empower citizens to exercise their rights. 
Among the identified themes is strengthening the rule of law, where 
``rule of law'' means that laws are knowable and understandable by all, 
apply to all, and apply to all equally.   Through SPA, USAID seeks to 
strengthen the rule of law in Rwanda, by improving the skills of 
judges, prosecutors, lawyers and other legal practitioners, and 
establishing effective oversight mechanisms, so that the justice sector 
institutions are able to perform their functions effectively, 
particularly as they relate to upholding laws protecting women and 
members of vulnerable populations. Moreover, rule of law may be 
strengthened and government accountability fostered by facilitating 
lawyers and human rights groups' engagement in public interest 
litigation. By strengthening the rule of law, USAID/Rwanda will 
strengthen the institutions and frameworks that make it possible for 
civil society to engage in open debate regarding respect for civil 
liberties and human rights and participate effectively in decision-
making.

    Mr. Feldstein. Thank you, Congresswoman Bass. I would also 
have to defer in terms of the specifics of the Rwanda program. 
But we do have a couple different things that we use that are 
applicable across Africa. These include specific human rights 
defenders programs that when there are dissidents or activists 
under duress we are able to provide needed assistance to help 
them find a safe space. We also have broader civil society 
strengthening programs. That means trainings outside of the 
country as appropriate to help build their capacity and ability 
to exert leadership at the right moments.
    I think one of the challenges in Rwanda, as I mentioned and 
as we document in the human rights report, is that they have 
fairly restrictive NGO registration laws. They watch very 
carefully the activities of different civil society groups. Any 
time a group moves across sort of an invisible line when it 
comes to political activity or human rights activity there 
tends to be a pretty stern, quiet reaction. And so that has 
really led to a chilling effect when it comes to the ability of 
civil society to operate in a free and fair manner.
    Now I think there is a broader amount of space available 
for service provision NGOs who do more development and 
humanitarian assistance work and I think that is something that 
is a positive. But on this sort of more political human rights 
front we have had a lot of problems in terms of finding groups 
that we can work with who aren't subject to the type of 
restrictions I mentioned.
    Ms. Bass. Can you describe some of the service programs 
that we fund in Rwanda?
    Mr. Feldstein. There is a range of those, and I would defer 
that more toward colleagues at USAID in particular. But in my 
prior experience, I know they range from health programs to 
agriculture to other of the sort of standard run of development 
programs that USAID oversees.
    Ms. Bass. So what about our security assistance to Rwanda 
specifically?
    Ambassador Jackson. Let me address that, Congresswoman 
Bass. So our security assistance is primarily in terms of 
peacekeeping training and support for Rwandan peacekeeping. 
Rwanda is involved in eight peacekeeping operations with 5,500 
soldiers and police involved in those operations. We, you may 
recall, suspended at the direction of this Congress our 
international military education and training programs in 2012. 
The plan is to resume those this year. So our security 
assistance has been focused on supporting Rwanda's deployments 
in peacekeeping operations.
    Ms. Bass. What are we resuming this year?
    Ambassador Jackson. International military education and 
training.
    Ms. Bass. What does that mean?
    Ambassador Jackson. So this is primarily bringing officers 
and enlisted men from Rwanda to the United States for specific 
training programs.
    Ms. Bass. That is one of the things that is always 
confusing to me about our policy. Because we are going to 
criticize the government for their human rights record and then 
we are going to train their military. So it is like which one 
is it?
    Ambassador Jackson. I respectfully submit that you need to 
do both. And it is important to train the military in order to 
make sure that they do not commit gross violations of human 
rights and that they are effective peacekeepers.
    Ms. Bass. Yes. It is just that it seems like some of the 
time it doesn't turn out that way, right? So I would like to 
ask, not to put you on the spot here but maybe you could get 
back to me with some of the specific democracy programs.
    Ambassador Jackson. I will have to get back to you on that.
    [The information referred to follows:]
   Written Response Received from the Honorable Robert P. Jackson to 
     Question Asked During the Hearing by the Honorable Karen Bass
    Our democracy programs in Rwanda are designed to encourage dialogue 
among political parties, civil society organizations (CSOs), youth, and 
the media. These programs are:
    The Civil Society Support Program (CSSP); a $1.4 million 
contribution to a multi-donor fund designed to strengthen the 
operations and effectiveness of local organizations operating in 
Rwanda. The key objectives of this program are to strengthen the 
capacity of independent local civil society organizations (CSOs) to 
engage with the Government of Rwanda (GOR) as more equal and effective 
partners on public policy, and rights and development issues, and to 
facilitate opportunities for the GOR and CSOs to engage on such 
policies and issues. It also allows us to more easily coordinate 
assistance to CSOs with other donors.

        <bullet>  The Strengthening Participation and Accountability 
        (SPA) Program: This activity will be up to $7 million, 
        implemented through a call for proposals. Proposals will be 
        requested from Rwandan CSOs, or international NGOs and Public 
        International Organizations to implement grants that strengthen 
        systems and processes to ensure rule of law, strengthen the 
        role of civil society in development, and empower citizens to 
        exercise their rights.

        <bullet>  Promoting Civic Engagement in Political Processes 
        (PCEPP) Program: This activity, an up to $10.7 million 
        investment, will seek to increase civic engagement and policy 
        dialogue in Rwanda's political and electoral processes. During 
        the upcoming elections, PCEPP will support increased free 
        speech, policy debate and civic awareness throughout the 
        electoral cycle. Activities will strengthen civil society 
        engagement on public dialogue, policy advocacy and oversight; 
        strengthen the media's professionalism and ability to generate 
        issue-based public policy dialogue, provide independent and 
        objective information to citizens, and objectively report on 
        the government's actions; and enhance civil society provision 
        of civic education that informs and empowers citizens.

        <bullet>  LAND Project: 2012-2017, planned investment of $12 
        million. The primary goal is to strengthen the resilience of 
        Rwandan citizens, communities and institutions and their 
        ability to adapt to land-related economic, environmental and 
        social changes. The project primarily does this through 
        producing evidence-based research led by Rwandan civil society 
        and research institutions on the GOR's land policies and 
        through communication and advocacy efforts to ensure citizens 
        are aware of, and engaged in, land policy issues.

        <bullet>  Human and Institutional Capacity Development (HICD): 
        2012-2017, planned investment of $15 million. The project 
        supports the Government of Rwanda's efforts to develop a more 
        responsive civil service that meets the public service needs of 
        Rwandan citizens. It will also help civil society organizations 
        (CSOs) become more capable of contributing to the development 
        of the country through training and skill-building efforts. The 
        goal of the project is to improve the overall performance of 
        targeted institutions to support Rwanda's development goals and 
        long-term social, economic, and environmental sustainability.

        <bullet>  Youth for Human Rights: 2014-2017, planned total 
        investment of $350,000: Youth for Human Rights (Y4HR) works to 
        build the leadership and advocacy skills of young Rwandans 
        (both women and men) to better understand and be able to stand 
        up for their own rights and the rights of vulnerable 
        communities.

    Ms. Bass. And then I am also interested in to what extent 
we fund Rwandans versus fund U.S. contractors to do work in 
Rwanda. How much of it goes to NGOs that Rwandans run?
    Ambassador Jackson. I will have to get back to you on that.
    [The information referred to follows:]
   Written Response Received from the Honorable Robert P. Jackson to 
     Question Asked During the Hearing by the Honorable Karen Bass
    Of funding provided by the USG for democracy programs in Rwanda in 
FY 2014, $9.3 million of a total of $111.9 m in FY 2014 was provided 
directly to Rwandan NGOs to program.

    Ms. Bass. No, no. That is what I was asking. I know that 
you don't know that now. You made reference, I believe, 
Ambassador Jackson, in your opening remarks to Burundi. And I 
was wondering if you could expand on that in terms of what is 
happening obviously in relation to Rwanda, but I don't remember 
exactly what you said and I want you to expand on that.
    Ambassador Jackson. So in Burundi we see protests 
continuing following the coup attempt. The protests have now 
gone on ever since President Nkurunziza's party nominated him 
for a third term and he was----
    Ms. Bass. I am sorry. I don't think I was clear. I was 
meaning specifically Rwanda's role. I am familiar with what is 
going on.
    Ambassador Jackson. Rwanda's role in Burundi has been very 
constructive from my point of view. President Kagame has been 
very outspoken about the need for President Nkurunziza to 
respect the Arusha Accord, and Rwanda has been very welcoming 
to refugees. And President Kagame has participated in the 
meetings with other regional leaders to attempt to persuade 
President Nkurunziza to restart dialogue with the opposition 
and create an environment that will be conducive to free and 
fair elections.
    Ms. Bass. And by the way, the general that attempted the 
coup?
    Ambassador Jackson. General Niyombare's whereabouts as far 
as I know remain unknown.
    Ms. Bass. Was he one of the ones we trained?
    Ambassador Jackson. Pardon?
    Ms. Bass. Was he one of the ones we trained?
    Ambassador Jackson. I would have to get back to you. I am 
not aware.
    [The information referred to follows:]
   Written Response Received from the Honorable Robert P. Jackson to 
     Question Asked During the Hearing by the Honorable Karen Bass
    Major General Godefroid Niyombare attended the 2010 African Land 
Forces Summit in Washington at U.S. expense. Our records do not 
indicate that we have provided training to Niyombare.

    Ms. Bass. Okay, thank you.
    Mr. Smith. Follow up on my friend's question. With IMET 
being resumed or in the process of being resumed, again Robert 
Higiro today will testify and will reiterate what he has said 
before that the director of military intelligence, Colonel Dan 
Munyuza was the one who--and he has got this on tape--said, 
``We have decided to give you this job. You have to go to South 
Africa and take out General Kayumba and Colonel Karegeya.''
    Now my question is when we are doing training, and as you 
said it is officers as well as others, will this man be left 
out of that training? I mean it seems to me that if this is 
true he ought to be indicted for conspiracy to commit murder. 
Is that on your radar screen? Do you know this man, the 
colonel?
    Mr. Feldstein. Thank you, Mr. Chairman. I think this is one 
of those cases that precisely falls into the Leahy vetting 
requirements. So for anyone who would be submitted by the 
Rwandan Government for participation in the IMET program we 
would extensively go through all the different allegations that 
are there, different public accusations and so forth, assess 
the credibility and then make a determination about whether 
this person would be barred or not by law. I think with a 
person like this who is so publicly connected to some of the 
allegations that we have discussed, I would assume that that 
name wouldn't come forward anyway.
    Mr. Smith. Let me ask you if I could, is Colonel Dan 
Munyuza, do you know of him? He is the director of military 
intelligence.
    Mr. Feldstein. It is a name I am familiar with. I haven't 
personally met him.
    Mr. Smith. What is your take on him? Is this a credible 
allegation? He is the one on the tape who is saying--and the 
BBC carried this and of course the Canadian newspaper that, we 
can listen to it if you would like--that he was trying to hire 
Higiro for this assassination.
    Mr. Feldstein. I think the allegations carry a lot of 
weight. I think when it comes to the investigations taking 
place in South Africa related to this incident we are waiting 
to see what the judicial process does.
    Mr. Smith. What are we doing regarding this man? I mean 
does our military intelligence, does our State Department 
interface with him as well? I mean if he is an alleged killer, 
an assassin or at least someone who puts people up to it, what 
is your view of this man?
    Mr. Feldstein. From a democracy standpoint I have not have 
any contact with him and I couldn't answer for other colleagues 
on that. I am not sure.
    Mr. Smith. Mr. Jackson.
    Ambassador Jackson. I have not had any direct contact with 
him, and given the nature of our training programs I would have 
to get back to you to see if there is any contact, Mr. 
Chairman.
    Mr. Smith. Could you?
    Ambassador Jackson. Yes.
    [The information referred to follows:]
   Written Response Received from the Honorable Robert P. Jackson to 
Question Asked During the Hearing by the Honorable Christopher H. Smith
    U.S. Embassy Kigali's Regional Security Office maintains regular 
contact with senior Rwandan National Police leaders in order to ensure 
the security of the Embassy and American citizens in Rwanda. As the 
Deputy Inspector of Police--the second most senior position in the 
Rwandan National Police--the Regional Security Office has infrequent 
contact with Colonel Dan Munyuza on matters related to embassy 
security.

    Mr. Smith. It is very important. We will make that a part 
of the record. Okay, Ms. Bass, anything else?
    Ms. Bass. No, thank you.
    Mr. Smith. We thank you very much, gentlemen. We will have 
some additional questions we will submit for the record. But it 
is concerning, disconcerting to me that the director of 
military intelligence have allegations pending against him, and 
you have to get back to me on that, back to us as a 
subcommittee. I wish you would have known that. And I wish 
something would, if it is true and maybe it is not credible, 
but it would appear that when you get a phone message and it is 
recorded we have methods and ways to ascertain whether or not 
it is an accurate tape recording. So please get back.
    I would like to now welcome our second panel--and thank you 
again, gentlemen--beginning with Mr. David Himbara who is an 
educator, political economist, and author currently working as 
a consultant focusing on African economic reform. A Rwandan 
native, Mr. Himbara spent a total of 6 years working for 
President Paul Kagame as head of strategy and policy in the 
office of the President and a principal private secretary to 
the President. Tasked with improving national competitiveness, 
Mr. Himbara spearheaded efforts that ultimately improved 
Rwanda's ranking in the World Bank's annual Doing Business 
Report, from 143rd to 67th out of 183 countries. Prior to his 
time in Rwanda he was based in South Africa working as a 
private consultant.
    We will then hear from Major Robert Higiro who served as an 
officer in the Rwandan military from 1990 to the year 2010. 
Major Higiro ran several training operations and commanded 
troops in the Democratic Republic of the Congo and the African 
Union's peacekeeping force in Sudan among other missions. Last 
year, the Canadian newspaper, The Globe and Mail, reported that 
Major Higiro was one of several men hired to assassinate 
Rwandan dissenters living in exile. Despite living in exile 
thousands of miles from Rwanda, he remains concerned about his 
own security and believes that he is being hunted.
    We will then hear from Mr. Willis Shalita who is a Rwandan 
American freelance photojournalist who writes about African 
affairs. In 1999, on the fifth anniversary of the genocide 
against the Tutsi, he wrote an opinion editorial that was 
recognized by the San Francisco Chronicle as the best national 
opinion editorial of the year. He is a retired special 
investigator from the California State Bar.
    We will also hear from Ms. Sarah Margon who is the 
Washington director of Human Rights Watch. Prior to joining 
Human Rights Watch she was an associate director of sustainable 
security and peacebuilding at the Center for American Progress 
where she researched and wrote on a wide range of issues 
including human rights, foreign aid, good governance, and 
global conflicts and crises. She also served in the Senate as 
staff director of the Senate Subcommittee on African Affairs, 
been a senior policy advisor to Oxfam America and worked at the 
Open Society Institute. She also testified before this 
subcommittee several times. So welcome back.
    Mr. Himbara?

  STATEMENT OF MR. DAVID HIMBARA, COORDINATOR FOR THE USA AND 
 CANADA, DEMOCRACY IN RWANDA NOW (FORMER AIDE TO THE PRESIDENT 
                           OF RWANDA)

    Mr. Himbara. Thank you, Mr. Chairman Smith, Ranking Member 
Bass. First of all, I thank you very, very much indeed for your 
leadership for holding this hearing. Secondly, I also submitted 
my----
    Mr. Smith. Without objection, your full statement and any 
attachments, for all of our witnesses, will be made a part of 
the record. So proceed as you would like.
    Mr. Himbara. Let me also thank you very, very much indeed 
for your leadership in trying to save the VOA Kinyarwanda/
Kirundi service. For God's sake that is now the only remaining 
link to the outside world for Rwanda. After the closure of the 
BBC there is nothing out there. Let me also take the 
opportunity to say that in fact the chairman of the Independent 
Media Commission just fled, just a week ago. So this space, 
space is shrinking, shrinking. So that VOA, Mr. Chairman, help 
us.
    Now going back now to my presentation. As was mentioned I 
worked for President Kagame twice, in 2000 to 2002. It didn't 
work out, when I decided to leave back to South Africa where I 
used to live, out in good terms. 2006, he invites me back. We 
sort ourselves out. He says, no, you can come back and lead the 
economic reforms, some of the things you were hearing, which I 
did up to January 2010. I fled.
    And one of the issues was actually the same, same 
celebrations of the economic miracle, statistics that are not 
really credible. I always stood my ground and said, Your 
Excellency, we are analysts, monitors, reviewers. So we can't 
cook statistics. I throw some statistic here that people can go 
out and look for themselves. If you see, for example, poverty 
reduction, one would say, well, 43 percent of the population 
are poor. You go to the World Bank or IMF, if you use $1.20 as 
a definition that is the globally accepted definition, 63 
percent live under that. If we use another global accepted 
definition, $2 a day, 83 percent of Rwandans are poor. So 
people are mistaking the clean streets of Kigali as measure of 
development.
    So anyway that was my conflict. I said no. We develop, but 
development is not a lie, it is not a prestige, no it is hard 
knocks of policy making. So I fled, and when I fled to South 
Africa then that is really when my problems began. Chased, 
chased, chased. Then in 2013, 2014, after the death of my 
colleague Karegeya, same town, Johannesburg, I think I thought 
that was a good sign. I fled then from South Africa. So I went 
back to Canada. The Canadian Government itself monitors me and 
other colleagues because we are not safe, but I do say I can 
sleep a little more peacefully than staying in Johannesburg.
    Now the human rights situation, I really don't have much to 
add beyond what the colleagues earlier on presented, but what I 
can add on though is the angle that most reports fail to 
capture. They fail to capture four things. First of all, if we 
look at the human rights situation, the horrific situation in 
Rwanda, we have to, we divide prior to 2012 as a phase, then 
after 2012. Then in those two periods we look at the targets, 
who are the targeted types. We look at the official stance. We 
look at the global environment in Rwanda. And then we look at 
the impact on development.
    So let us look at the target between those two periods. 
Prior to 2012, the targets for harassment, imprisonment, or 
even killings like political opponents or media, so individuals 
like Victoire Ingabire, Deo Mushayidi, these are the people 
wanted to compete that are now in jail. We look in terms of 
killings, we look at people like Seth Sendashonga. We look at 
the opposition leader basically beheaded in 2010. So the media 
types, editors. So really that period the targets are clear and 
predictable. It is either political or media types.
    But now when we go now into post-2012 it is no longer, it 
is no longer just that. No. Three months ago, President 
Kagame's personal doctor, Dr. Emmanuel Gasakure, shot in a 
police cell, killed. Gustave Makonene, this is the coordinator 
for Transparency International, strangled. Kagame's personal 
driver killed. So whereas in the prior period, as I said, it is 
clear the targets, but now it's almost random.
    Okay, now, number two, the difference between the two 
periods. Prior to 2012, the official stance or the official 
attitude was deny, deny, deny. Post-2012, no, it is 
celebration. President Kagame himself after Karegeya died said 
no, we did not kill him but I wish we did. Moreover, people 
like him is only when and how. Of all places, that was said in 
a breakfast prayer. Then 2 months later, again the President 
Kagame say, oh those people who are making noise about the 
human rights, no, no, no. We are not only going to imprison 
people, we are shooting them. We are going to shoot them in 
broad daylight. All this is in the public domain. So that is 
difference number two.
    So the difference number three between the prior and post-
2012, prior 2012 you see the environment was basically, the 
environment kind of the usual dictatorial regime. The usual 
dictatorial regime is where for ordinary folk you just live on 
and there is no problem. The people who are problems are those 
high up in politics. But you see this is no longer the 
situation. The situation now is actually we are not talking 
about dictatorship, we are talking about now is a totalitarian 
state. Seeking to control. So as we move and drive fear into 
the population.
    So as we move to 2017 with this business of constitution, 
the villages, the towns, they are being forced to sign up to 
say we want a constitutional amendment. So what you are going 
to see then in Rwanda is not people demonstrating against the 
third term, but rather people demanding that the man stays. It 
is orders. In Rwanda, the smallest administrative unit in the 
system is called ``nyumba kumi.'' That means ten houses. Every 
ten houses are watched by one individual. And as you move on, 
the whole state machinery, driving fear, is well established.
    Okay. The last difference between the two periods, the 
impact on development. Again you hear how Rwanda is a great 
success story. Prior to 2012 you see underground the government 
was grabbing business, business, business. Not on surface, you 
wouldn't know it. Even American companies like Chevron, 
property grabbed, but those was kind of underground. But now in 
this current period, there is no apology for grabbing business. 
A $20 million mall, UTC, in the center of Kigali is grabbed and 
because the owner does not live there. It is like saying, so in 
UK if I said, well, since Bill Gates does not live in UK we are 
grabbing Microsoft. Pure madness. So it is that environment 
then that really, it is anti-developmental.
    So let me now conclude. We thank you again for holding this 
hearing. We thank you for fighting for the VOA. We also 
encourage you that we take this, I saw those hard questions you 
were posing. So I think we need to keep on that, perhaps even 
think of a congressional resolution that can seriously have an 
impact on policy change toward Rwanda. I thank you very much.
    [The prepared statement of Mr. Himbara follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Mr. Himbara, thank you so very much for your 
testimony. I would like to now ask, Mr. Higiro, if you would 
proceed.

STATEMENT OF MAJOR ROBERT HIGIRO, RDF, RETIRED, COORDINATOR FOR 
                BELGIUM, DEMOCRACY IN RWANDA NOW

    Mr. Higiro. Chairman Smith, Ranking Member Bass, members of 
the subcommittee, ladies and gentlemen, good afternoon. I think 
my name has been mentioned several times. I am Robert Higiro. I 
was born in Uganda because my parents lived there after being 
forced out of Rwanda in 1959. So I share the same background 
with the President because he was also raised in Uganda as a 
refugee.
    I was part of the force that seized control of Kigali in 
1994 which actually led to the falling of the former Hutu 
regime and brought an end to the genocide in Rwanda. I did work 
for two decades with the Rwandan Military and served in 
different capacities. I had two tours as a peacekeeper--one 
with the African Union, the initial launch of the full 
peacekeeping, and another one with the United Nations/African 
Union Hybrid mission which is still ongoing.
    On returning home, that was 2010, I only learned that I had 
been de-commissioned and out of job. What that means in Rwanda 
is that no single investor or businessman is going to work with 
you because it means you are disfavored from the system. So as 
my colleague just mentioned it is a controlled business 
environment. So I went to Uganda to pursue business 
opportunities, but not so long I was summoned back to Rwanda 
and I was questioned about my links with the former Army Chief 
of Staff, General Kayumba Nyamwasa, and former National 
Intelligence and Security chief Colonel Patrick Karegeya. These 
two officers had of course fallen out with President Kagame and 
had fled to South Africa. This happened to me but even to other 
many officers.
    The most recent example are Colonel Tom Byabagamba who 
actually protected President Kagame since 1990 until recently 
in 2010 or 2012, looking after Kagame, protecting him. He was a 
deputy sector commander in southern Sudan as a peacekeeper. 
When he got home he was taken straight to prison. Same happened 
to General Frank Rusagara, military attache in the United 
Kingdom. After his services, straight to prison. David Kabuye 
served for a long time, straight to prison, and many, many, 
many others.
    The military we are talking about today is no longer there. 
He has young boys doing the peacekeeping. But all the top 
colors that actually helped him get into power, they are either 
in cells, dead, running, all over the world. Others are idle in 
the country which is a very dangerous aspect when it comes to 
national security.
    Well, after my interrogation I was suspicious. I knew that 
something is wrong that they wanted to use me for that job as 
usual. Having served 20 years I knew exactly why they summoned 
me, and I was met by the military leadership. It was not long 
my former trainees warned me that if I don't leave the country 
I would be in danger. So I fled to Senegal, thinking that if I 
go as far as possible they will forget all about me.
    But a few months, 2 or 3, somebody was sent by the Director 
of Military Intelligence Dan Munyuza to tell me that they have 
a job for me. He calls me directly and tells me that they have 
sat down and decided to give me a job, and the job was to go to 
South Africa and eliminate former Chief of Staff General 
Kayumba Nyamwasa and former National Security and Intelligence 
chief Colonel Patrick Karegeya.
    And there is a question you asked, I should state on the 
record, is Kagame involved and up to where? When Munyuza, 
Director of Military Intelligence, is giving me a mission he is 
only quoting the President. Now I was desperate and I needed 
time to think about it, because I know that whether you do the 
job or not you are going to die anyway. So I called Colonel 
Patrick, gave him the story, and we agreed that I go to South 
Africa and play by Dan's motions.
    I went to South Africa. We discussed between me and General 
Nyamwasa and Colonel Patrick, how to go about it. So we agreed 
that I should gather as much evidence as possible by recording 
each and every conversation of the instructions over this 
assassination plan which could be used like we are using it 
today. So I recorded these conversations for over 7 months, and 
eventually I told Munyuza of course that I could do the job. 
And he said he would offer up to $1 million for the job.
    We went on and on--modalities, the weapons to be used, what 
he wants me to do, how to do it, etc., etc., and then 
eventually couldn't send in the money because we were waiting 
for the money to come in which would add on this evidence. But 
he started saying that the boss was saying, he tells me, we 
should wait, wait until you eliminate them first before you are 
paid. And I knew something is wrong, and then I had to flee 
South Africa. I went to Uganda, crossed to Nairobi and 
eventually found myself in Belgium where I live today as a 
dissident like others.
    In Rwanda, like others, I am a wanted man. Abroad I am on 
the hit list. Like him, like anybody else. Well, like you said, 
or the previous speakers, on the New Year's Eve of 2014 Kagame 
achieved his wish and that is when Colonel Patrick Karegeya was 
found strangled in a Johannesburg hotel. I should add here that 
some of these individuals involved are known. We know them. 
South Africa is conducting the investigations. We are waiting. 
But we know some of these individuals. General Kayumba Nyamwasa 
has survived, I think, three assassination attempts in South 
Africa. The first one he was actually shot but he didn't die. 
The others, they would find him in a different location and it 
has been three or four times. He is still living, we don't know 
for how long.
    For me, when this happened, when Patrick died, I decided to 
find a leading newspaper, the Canadian newspaper, The Globe and 
Mail, and shared my story. I gave them access to the tapes. 
These tapes were independently verified and translated. This 
paper went as far as interviewing former military officers and 
they confirmed, indeed, the voice belongs to Munyuza. And not 
only that but particularly as you are telling them, Department 
of State we can verify this voice, if the government says, no, 
this is not Dan Munyuza then they should give us the official 
voice of Munyuza and we compare with the one I have. If it is 
not true, then well it is not.
    I cannot go again over the list of Rwandans who were 
assassinated abroad and in the country. You have talked about 
it. He has talked about it. We have submitted a copy of that. 
It is a long one. But the reality is tragic.
    I would like to end with a message to my fellow Rwandans, 
Hutus and Tutsis have much to attain for with regard to 
another. Like me, many Tutsis support the establishment of 
truly independent courts that would follow these crimes 
committed by President Paul Kagame and his allies. If you allow 
me I will read you this quote from Mandela in 1994. I quote,

        ``Out of the experience of an extraordinary human 
        disaster that lasted too long, must be born a society 
        of which all humanity will be proud. The time for the 
        healing of the wounds has come. The moment to bridge 
        the chasms that divide us has come. The time to build 
        is upon us.''

    I sincerely thank the subcommittee for its time and 
interest, and respectfully ask for help, and the help of the 
entire U.S. Congress, to urge Rwandans to put aside their 
divisions--regional, political, and ethnic--and work peacefully 
together to end this repressive regime. Thank you.
    [The prepared statement of Mr. Higiro follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Higiro, thank you very much for your 
testimony and for your courage, both you and Mr. Himbara coming 
forward as you are knowing that there are risks. And I thank 
you. Ms. Margon?

   STATEMENT OF MS. SARAH MARGON, WASHINGTON DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Margon. Thank you. I will just give a bit of a 
shortened version. I did want to thank you, Chairman Smith and 
ranking member, for holding this really important hearing--I 
know it has been a longtime interest--and for inviting me to 
testify. I am glad to be part of it and also to even out the 
gender balance on the panel a little bit. So thank you.
    Twenty-one years after the genocide, Rwanda has come a long 
way. By any measure, there has been real concrete improvement 
in terms of economic growth and access to public services. I 
won't go over the indicators that were mentioned on the last 
panel, but I do think it is worth noting the country is on 
track to meet the Millennium Development Goals as you said, Ms. 
Bass, for 2015, and the Parliament is majority female at nearly 
65 percent.
    By the sounds of it, Rwanda is not a country in crisis. It 
is a country where things work. But in reality, it is only some 
things that work. The same government that has helped so many 
Rwandans out of poverty and propelled the country's economic 
growth has done so while severely restricting the fundamental 
civil and political freedoms of many.
    Indeed, gains are undermined by two persistent trends. One, 
systematic domestic repression that stifles, sometimes very 
violently, dissent, opposition, and independent thought; and 
two, repeated cross-border meddling and support for abusive 
armed rebel groups in neighboring Democratic Republic of the 
Congo, or the DRC. International and regional attention of 
Rwanda has usually been when it has gone cross-border into the 
DRC, and this has happened at least four times since 1996.
    I, today, would like to talk much more about the domestic 
issues, because I think actually it is within this environment 
that government accountability and transparency need to begin. 
Because, in fact, if there had been a viable civil society and 
media, perhaps the authorities in Kigali might have stopped 
their meddling operations and other adventures abroad.
    Rwanda is a country of double realities. Visitors are 
impressed with the facade, the apparent security. But it is a 
smokescreen, because many Rwandans live in fear and not just 
because of the legacy of genocide but because the current 
government--the only one since the end of the genocide in 
1994--runs the country with a tight grip on power. Indeed, the 
ruling party, the Rwandan Patriotic Front, dominates all 
aspects of political and public life.
    This is not new. It has been a constant feature since the 
end of 1994. Civil society is weak as a result of years of 
state intimidation, infiltration, and heavy, heavy 
administrative burdens. Activists have fled, and the one 
remaining domestic human rights organization was taken over by 
members sympathetic to the government in 2013. My organization, 
Human Rights Watch, is falsely accused of supporting the 
Democratic Forces for the Liberation of Rwanda, or the FDLR, 
time and time again.
    Along similar lines, the Rwandan media remains heavily 
dominated by pro-government views with most journalists unable 
or unwilling to investigate and report on sensitive issues. To 
be fair, the Rwandan Government did introduce new media laws 
and reforms in 2013, which enshrine journalists' rights to 
freedom of opinion and expression, but for the most part these 
reforms haven't translated into any reality because of years of 
intimidation that have led to self-censorship and a decreased 
interest in investigating alleged abuse or even dissent.
    The Rwandan Government invokes the need to prevent a 
resumption of ethnic violence as justification for restricting 
freedom of expression. The practice is disingenuous because it 
silences all forms of dissenting criticism including many that 
have nothing to do with ethnic violence, and that is a tactic 
that could end up reversing Rwanda's apparent stability and 
even its economic successes.
    Despite abundant evidence of serious repression by the 
Rwandan Government there has been muted international 
criticism. Kigali enjoys strong support from donor countries 
like the U.S., international financial institutions such as the 
World Bank, and a range of other political actors and 
independent foundations. The absence of a comprehensive policy 
approach to address Rwanda's disregard for fundamental rights 
is stark. Rwanda is held up as the all too rare model of 
successful development in Africa so the focus stays there. The 
repressive domestic environment is treated as an ancillary 
problem or not treated at all mostly because, it seems, it is 
just too difficult to reconcile this bad narrative with the 
more positive one.
    But there is good reason beyond moral considerations for 
donor governments and all others to consider all at the same 
time. In 2011, the World Bank's World Development Report argued 
that peace is most likely to endure if Rwanda's political space 
is gradually opened up, and it also argued that post-conflict 
stability premised on economic growth and strong leadership, 
but without political liberalization in the long term may have 
a finite duration and possibly a dramatic ending. His 
conclusion is an important warning for this Congress, 
particularly with the Fiscal Year 2016 budget for foreign 
operations approaching.
    So what does this mean for U.S. policy? I will make a 
couple very quick recommendations. For starters, the 
administration and Members of Congress should keep speaking out 
against abuses by the Rwandans. Recent statements have had a 
tremendous impact. Rwandan officials' insistent denials of 
repression in their country make it clear that the statements 
matter. International legitimacy is very important to the 
Rwandan Government. It wants to be a regional player and 
condemnation of poor domestic behavior doesn't fit that model. 
So please keep up the pressure.
    Second, I won't go over the VOA again, but Human Rights 
Watch does support the full funding of VOA, and I was very 
pleased to hear State Department say that as well. Thank you 
both for your leadership on that issue as well as the chairman 
and ranking member of the full committee.
    I would also urge you and the administration to push the 
Rwandan Government to permit the development of a truly 
independent civil society by allowing human rights groups to 
operate freely. This is not going to be easy. I note that while 
it was said on the earlier panel that there is $2 million for 
the Fiscal Year 2015 budget, if you look at the Fiscal Year 
2013 budget, USAID spent $3.2 million on democracy and 
governance in Rwanda, but only $500,000 of this went to civil 
society and none went to support the rule of law and human 
rights.
    Sorry?
    Ms. Bass. Where did it go?
    Ms. Margon. I don't know. You can't find that information 
too publicly. I can try to look. But the absence of the funds 
doesn't mean there isn't engagement on the issue. What worries 
me is that because there is no funding specifically allocated 
for human rights and the rule of law and more money for civil 
society, there is no strategic approach being invoked to 
address these issues in a difficult environment. So I would 
encourage Congress, and the subcommittee in particular, to 
engage very robustly on this issue.
    Finally, I will just say that the United States should use 
its prominent role at the World Bank and with other financial 
institutions to urge broader guiding principles that are not 
only rooted in the freedom from want but also the freedom from 
fear. I will close by saying that I am aware of concerns 
expressed by some in the administration and also here in 
Congress that a more public stance on Rwanda's domestic 
environment would undermine the bilateral relationship between 
Rwanda and the United States. But the U.S. often underestimates 
its own leverage and becomes overly cautious. The U.S. may need 
Rwanda for peacekeeping and other issues, but Rwanda needs the 
U.S. too. So the U.S. should continue refining its policy on 
Rwanda and send a strong signal of support to the many citizens 
who crave the freedom of expression and greater political space 
but haven't had access to it. Thank you.
    [The prepared statement of Ms. Margon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Appreciate it very, very much. Mr. Shalita?

  STATEMENT OF MR. WILLIS SHALITA, PHOTOJOURNALIST AND BLOGGER

    Mr. Shalita. Mr. Chairman, Ranking Member Bass, other 
members of the panel, it is an honor to be invited to speak 
before you at this hearing. Thank you very much. The diverse 
viewpoints included here demonstrates your commitment toward 
strong partnership between the United States and Rwanda. No 
topic is closer to my heart, Mr. Chairman.
    My name is Willis Shalita and I am a proud American, but 
also a very proud Rwandan. But at one time, Mr. Chairman, I had 
no country. In the early '60s, hundreds of my fellow Rwandans 
were expelled from our homeland. I lived in exile in Uganda up 
until Idi Amin's reign of terror made me a refugee for the 
second time.
    Mr. Chairman, I have lived under a dictatorship. I know how 
it feels. I know what to look for. I am here to tell you today, 
Rwanda is not a dictatorship. Forty-two years ago America 
welcomed me into this country. I found a home and also my 
vocation as a special investigator for the State Bar of 
California. My job was to separate fact from fiction, build a 
strong case, and testify under oath about my findings. I did so 
hundreds of times, Mr. Chairman, over my 28-year career as an 
officer of the court. Today I work primarily as a writer with a 
focus on Rwanda.
    After the genocide, 1 million Rwandans lay dead. No one had 
any real idea how to render justice, survivors and 
perpetrators, much less how to live together again. Twenty-one 
years later, Mr. Chairman, the country stands out. Rwanda leads 
the world in women's representation in Parliament. Mr. 
Chairman, things don't happen where there are no conducive 
conditions.
    Rwanda ranks number one among low-income countries in the 
World Bank's annual Doing Business index. Professor Paul Farmer 
of Harvard Medical School found that the Rwandan health system, 
``achieved some of the steepest declines in premature mortality 
ever documented anywhere.'' Funding from the United States 
played an important role.
    As has been said, Rwanda is the fifth largest troop 
contributor to U.N. peacekeeping missions. Religious freedom is 
protected in Rwanda. An attempt to criminalize homosexuality 
was defeated in Rwanda. Rwanda is socially conservative, but 
gays and lesbians need not worry about government interference 
in private matters.
    Now Mr. Chairman, at this point you may be thinking, ``Yes, 
but,'' but why does there have to be a ``but''? The facts are 
real. The data comes from trusted, independent sources. Is 
Rwanda perfect? Not even close. But the best way to uncover its 
flaws is to go to Rwanda where the most scandalous data about a 
country is made public by its own institutions. Go attend a 
citizen outreach meeting and tell me if you think Rwandans are 
too intimidated to tell truth to power. I say not.
    So why do we often find ourselves adrift in this strange 
Bermuda Triangle of confusion when it comes to Rwanda? To 
prepare for this hearing, Mr. Chairman, I put my investigator 
hat back on. How is it that individuals who once proudly 
contributed to Rwanda's success now calmly assert that the 
country is some kind of tropical North Korea? Mr. Chairman, the 
answer is simple and facts simpler than I thought--money and 
politics.
    The House lobbying database records that my fellow witness, 
Dr. Himbara, hired the top-tier firm in 2014 paying them 
$190,000. If he can afford that sum on his own, then I want 
whatever consulting gigs he has. And Mr. Chairman, if the money 
isn't his, then this subcommittee deserves to know the source 
of this money. Democracy in Rwanda Now, DIRN, registered this 
domain, this is his outfit. They registered their domain a week 
ago around the same time this hearing was announced. Was 
something wrong with whatever affiliations were being used 
before? This subcommittee needs to know.
    I note that Mr. Higiro, here, is a senior cadre of the 
Rwandan National Congress, a foreign political party whose 
leaders seek the violent overthrow of the Rwandan Government 
and they even collaborate with the FDLR, a genocidal terrorist 
organization. Mr. Chairman, people have a right to seek 
influence provided they follow the rules. But until we know who 
know who foots the bill and why, there is no way to assess the 
credibility of claims made by this shadowy network. Maybe I am 
naive, Mr. Chairman, but my experience is that truth is more or 
less free for the picking. But if you want people to believe 
lies, well, that is going to cost you.
    References have been made about trials or fake trials and 
imprisonments of Rwandans. Mr. Chairman, I am here to tell you 
that trials in Rwanda are open. There has been confidence 
expressed in the Rwandan judicial system by countries like the 
U.S., Canada, Norway, Denmark, who have extradited people who 
had bloody hands during the genocide against Tutsi.
    Mr. Chairman, this malicious campaign damages the strong 
bilateral relationship between Rwanda and America, but we must 
not let cynicism prevail over common sense and core human value 
that my beloved two countries share in equal strength and 
measure. Mr. Chairman, I will submit a longer presentation for 
the record. Thank you, sir.
    [The prepared statement of Mr. Shalita follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Mr. Smith. Thank you, Mr. Shalita. Let me just ask you, Mr. 
Shalita, the Globe and Mail in an article by Geoffrey York and 
Judi Rever, which is a very extensive piece that they did, an 
investigative piece, they point out, and I quote them in 
pertinent part, that

        ``The investigation by The Globe and Mail found a 
        common thread in interviews about plots to murder 
        exiles: Rwandan agents search for vulnerable people 
        within the social circles of their targets and then put 
        pressure on them or offer them money in exchange for 
        their cooperation. In some cases, the agents go back 
        repeatedly to the same potential assassins even if they 
        failed to do the job, urging them to do what they were 
        paid to do.''

    You have heard today witnesses, two, who have personal 
knowledge. One with recordings that I have asked and I will 
continually ask the State Department to review. I find it 
appalling that they have not done so yet, and maybe they have 
and somebody will emerge and say, oh, I have done that. But it 
certainly has not percolated to the point where the 
policymakers, the Acting Assistant Secretary, and of course Mr. 
Feldstein have any knowledge of. They have to get back to us on 
that. And then of course Mr. Himbara who was literally there 
with him and was part of a team on the economic side. Are you 
saying this isn't true?
    Mr. Shalita. Mr. Chairman, thank you for the opportunity to 
respond to that. Having been an investigator for 28 years, let 
me say this. Allegations are simply that. I welcome your 
request that these allegations, these accusations, be verified 
by independent persons. Let me say this, Mr. Chairman. The 
South African Government looking into General Nyamwasa's 
attempted assassination has not finished its investigation, so 
how do we rush the conclusion that the Rwandan Government was 
involved?
    Mr. Smith. Well, before I go into our other witnesses, just 
let me say, and even Acting Assistant Secretary Jackson pointed 
out that they expressed concern in January 2014 about the 
succession of what appeared to be politically motivated 
killings of government critics in exile. And then we went 
through a long list of--he did not elaborate when asked and I 
am sure he will get back, but I think there are people very 
concerned within our U.S. Department of State.
    I think Ms. Margon is probably very concerned about these 
people who are turning up dead. And when South Africa and other 
nations do take actions to investigate, and it is very hard to 
cross borders especially to really get to the truth of what is 
happening and when and where, but when you see a pattern, 
reasonable men and women say there is a real problem here. And 
as Mr. Higiro said, and I thought that was very telling, that 
when statements are made by the director of intelligence about 
killing he is only quoting the President. That is a pretty 
strong allegation.
    Ms. Bass. Yes, if you don't mind, Mr. Chair, if you could 
yield. Didn't the--you said that the South Africans were still 
investigating, and I thought the South Africans expelled the 
Rwandan representatives. No? I thought they had.
    Mr. Shalita. Thank you, Ranking Member. No, if I can 
correct you, the South African Government has come to the 
conclusion that the alleged assassins were from Rwanda. The 
conclusion, Madam Member, has not been made that the Rwandan 
Government was involved. We live in America where you are 
assumed innocent until proven otherwise. There is no conclusive 
evidence.
    Ms. Bass. No, no. But I thought they expelled the Rwandan 
diplomats. So it wasn't just that it was a Rwandan that they 
said committed the crime, but I thought that they kicked out 
the diplomats. They did not kick out the Rwandan Ambassador in 
South Africa?
    Mr. Shalita. Thanks again. During the exchange of words, as 
happens always, the Rwandan Ambassador was asked to leave. But 
soon thereafter Rwanda sent back another Ambassador and we 
have, Rwanda has an Ambassador in Johannesburg.
    Mr. Smith. Let me just ask you further on this. If Paul 
Kagame is not in any way complicit in any of this nor his 
director of national intelligence, would you then support and 
would the Rwandan Government support an international team of 
investigators who would have unfettered access to information 
to people so that they can investigate this and go to source 
material, look at logs, look wherever the investigation takes 
them? Because otherwise I would be concerned about a whitewash, 
again more people dying.
    I am very worried that this is in escalation, not in 
decline, especially as Mr. Himbara mentioned earlier. The two 
phases, political opponents but now it has morphed into his 
driver and other people who are selected for killings, and it 
just raises serious questions about how wide and how deep this 
will go in terms of the killings.
    So would you support? Do you believe the administration 
would support? I am talking about the Kagame administration, 
unfettered access and investigation by an international team of 
maybe under U.N. auspices or AU auspices who would get to the 
bottom of this?
    Mr. Shalita. Mr. Chairman, thank you for the question. As I 
stated before, I don't speak for the Rwandan Government. I am 
here on my own as an American Rwandan who is interested in what 
goes on in my country. Mr. Chairman, your question is above my 
pay grade, but I will join with you having an independent body 
investigating these allegations. Again, Mr. Chairman, these are 
nothing but allegations.
    Mr. Smith. Again, we did invite you to join us. The Embassy 
of Rwanda requested that. And I want all sides at all times on 
something so important as this to be present at the table. So I 
would hope you would take that back and join us in asking that 
Kagame allow that kind and even embrace it. If I were innocent 
and I were in his shoes I would demand that there be an 
international investigation to clear my name. There is nothing, 
as Proverbs says, more important than one's name. The Book of 
Proverbs. If your name is tarnished you invite people who have 
no political agenda whatsoever to go in and uncover the truth.
    Mr. Shalita. Mr. Chairman, again I was asked by the Rwandan 
Embassy to come and testify because they know of my passion 
about what goes on in Rwanda. I have no affiliation. I have no 
place in making decisions like you are asking for. However, let 
me say this, Mr. Chairman. I would support you fully, 100 
percent, to send an independent organization to look into 
allegations. Again, Mr. Chairman, these are nothing but 
allegations, and making allegations doesn't make a witness 
believable or not believable. It should be put to test and all 
evidence should be brought in and verified.
    Mr. Smith. Mr. Himbara, did you want----
    Mr. Himbara. Thank you, Chairman. I think the ranking 
member Karen Bass, she got it right. The court case on the 
attempted assassination of Nyamwasa, the original one, was 
settled in court. And the result of that case while that no, it 
is not actually the Ambassador that was kicked out, no, the 
Ambassador of Rwanda is the only person that was left. All the 
other diplomats were expelled.
    And it is important to hear what the judge said. This South 
African judge said, well, we are sending these four people to 
jail for this attempted assassination, but actually the people 
who should be in this court are authorities in Rwanda. That is 
clear. Then farther north in Sweden, Sweden expelled a Rwandan 
diplomat for harassing a Rwandan diaspora. Down south in UK, 
the Metropolitan Police, also the Scotland Yard had to send 
warnings to British Rwandans to watch out because they were 
targets. But for the South African case. It is a done deal. 
Absolutely. You are right, yes.
    Mr. Smith. I just want to ask a couple other questions and 
we will get back. Let me ask Mr. Higiro, in your opinion is the 
U.S. Department of State pressing an investigation into the 
killings and the alleged conspiracy to assassinate well enough, 
aggressive enough? Have you been interviewed by anyone? Have 
your tapes been analyzed from CIA to U.S. Department of State 
as far as you know? And where is Colonel Dan Munyuza, the 
Director of Military Intelligence. Is he still in that position 
in Rwanda or has he been dismissed? Where is he?
    Mr. Higiro. Thank you, Mr. Chairman. Dan Munyuza actually 
was moving with me. I was employing him indirectly. So he 
started this when he was the Director of Military Intelligence, 
but we have the Chief of External Intelligence who is supposed 
to be dealing with people like us who are supposed to be killed 
outside the country.
    So because of the way they thought I am going to do 
something great and become a hero as they told me, he was moved 
from the Director of Military Intelligence to the Director of 
External Intelligence. So I continued with him. When the 
mission aborted, he was taken to prison straightaway and then 
he was brought back, he is now the deputy national police 
commander, but he is still in Rwanda.
    Let me make something clear. It doesn't really matter where 
Dan Munyuza or Jack Nziza, what post they hold in the 
government or in the military or in the police. It is just a 
shadow for them to do what they are supposed to do. These are 
two gentlemen who get direct orders from the President. They 
are the ones who have killed almost everybody that has died. 
Seth Sendashonga they are talking about, was killed by Jack 
Nziza in Nairobi when he was a diplomat there. It doesn't 
matter where they are.
    But I am going to defend my colleague, Mr. Shalita. I feel 
sorry for him. I feel sorry for Rwandans who are here. I feel 
sorry for the diplomats in these Embassies of Rwanda. They are 
told what to say. There are lines they can't cross--and you can 
see him. He doesn't really have even that information. They 
don't even feed him the information to support to them. He 
doesn't know anything about these cases. He is an American. He 
has been in America. He has never lived in Rwanda. He doesn't 
understand what is going on.
    But to the passion he talked about, he thinks the country 
is moving in a good direction. And I am sure he is going to 
find out more after this hearing and probably we are going to 
talk about it. So that is the truth.
    And to the other question of the State Department, they 
have not done that so far. They have never----
    Mr. Smith. They have not.
    Mr. Higiro. They have never reached me. They have never 
reached me, but I have shared this with the Belgian Government 
and I think they know. Because of course when you are asking 
asylum we need to give such evidence as to support our criteria 
to be recognized.
    And still on that point, I would request to clarify that 
even where we are we are not safe, and the governments like you 
asked, the department responsible. They think it is a joke or 
not very serious, but it is very serious. The widow and 
children to the late Colonel Patrick Karegeya who was strangled 
in South Africa, are here in U.S., but they have been denied 
asylum up to now because of this conspiracy. I am not accusing 
them but there is a problem. They are like prisoners. They 
don't move out of view. It is the current situation.
    You can take it from them and find out what is the problem? 
What kind of criteria does this family that their own father 
and husband was strangled in South Africa does not fulfill for 
them to get asylum in this democratic country? It is a big 
issue. The conventions, the Geneva Convention are clear, but 
something is wrong somewhere. Even us in Belgium, in Europe, in 
Africa, the refugees from Rwanda, let us talk about the 
kidnapping of Lieutenant Mutabazi to Rwanda. It was against the 
law, but the Ugandan Government has never said anything about 
that. The UNHCR has never said anything about that, but it was 
wrong.
    The wife and the children to this lieutenant are somewhere 
in a camp in Uganda. The children are not going to school. She 
was supposed to be taken somewhere. She is still there. So are 
we doing enough? Are the strong countries doing enough on what 
we are talking about? Absolutely not.
    We are here. I put my life on the line to come here and 
say, look here, the crime is this, and I do this in many 
different capacities and I talk to different Rwandans--Hutus, 
Tutsis--I do it every day, every day, every day. I talk to 
whoever I meet. I have talked to different diplomats. But 
nothing is being done. Thank you.
    Ms. Bass. Sure. Yes, thank you. Thank you, Mr. Chair. I 
guess I want to ask that, the two of you, and feel free to 
chime in, Ms. Margon. What is Kagame's motivation? I mean I am 
assuming that you are saying he is going to run again for a 
third term. What is his motivation? If he is so strong why does 
he need to do this?
    Mr. Higiro. Thank you. The third term thing is complicated 
now. I think he might have talked about it. What even Mr. 
Shalita believes is that the Rwandans love Kagame. Kagame is 
going to have a youth gathering in Dallas, Texas, on Saturday. 
Do you know the number? Seven hundred young boys and girls. Do 
you know where they are coming from? Rwanda, the diaspora here, 
Canada, Europe. Do you know who funds them to go there? The 
government. The money you give him.
    Ms. Bass. The money we give him.
    Mr. Higiro. Yes.
    Ms. Bass. You are saying he is flying Rwandans in from all 
of those countries?
    Mr. Higiro. Flying Rwandans, yes.
    Ms. Bass. They don't live in Texas?
    Mr. Higiro. Not everybody is in Texas. And they have to 
feed, they have to sleep. I mean it is not my----
    Ms. Bass. Well, he is having a rally of Rwandans in Texas 
and he is flying them from all over the world to be there?
    Mr. Higiro. Yes.
    Ms. Bass. So what you are saying is that he does not have 
the support at home? I mean why does he need to assassinate 
people all over the world?
    Mr. Higiro. What should I say? I mean we fought a very 
complicated war from 1990 to 1994. The Rwandans have 
experienced, mention any single crime which has not been 
committed in Rwanda. What does the President want that I don't 
want for Rwandans?
    Ms. Bass. You want to respond to that? Why does he need to 
do that?
    Mr. Himbara. There are several reasons why. First, remember 
that already the U.S. had to apply for immunity for President 
Kagame. He made history here from a lawsuit. That is one. That 
is from the widows of the Presidents that were shot down. This 
government applied for immunity for him. The Congo Mapping 
Report, the U.N. mapping report concluded that there is enough 
material there to indict Kagame for genocide.
    Ms. Bass. So he is doing this so that he doesn't have 
witnesses around when he did?
    Mr. Himbara. The moment he leaves power the immunity is 
gone. That is one reason.
    Ms. Bass. Okay.
    Mr. Himbara. There are so many people that he has offended, 
so that is one. Number two, this so-called development that 
people are talking about, do you know the biggest companies 
that actually control that run the economy? It is the Rwandan 
Patriotic Front companies. The holding company is called 
Crystal Ventures Limited. It controls just about everything.
    So President Kagame, he wears three hats. President of 
Rwanda, chairman of the party, but also the leading 
businessman. So the Rwandan version of capitalism is crony 
capitalism. He loses that office, who knows where that business 
empire will be?
    Ms. Bass. Okay. So Mr. Shalita, everything that you have 
said is, is that I guess is that there is no proof of anything. 
Everything is just allegations?
    Mr. Shalita. What we have heard here today, and having been 
an investigator for 28 years investigating the best lawyers in 
this country, I hear nothing but allegations. If there are 
facts why not share them with you?
    Ms. Bass. Well, I think that Mr.----
    Mr. Shalita. I resent the fact that my fellow witnesses 
here, they think they are entitled, well, they are entitled to 
their opinion but they are not entitled to their own facts. Let 
me say something, Mr. Chairman. The allegations----
    Mr. Smith. Again, we have a man who has recorded the 
request that he assassinate two individuals that the Toronto 
newspaper and the BBC found credible. To my chagrin, and I am 
sure that of the ranking member, our own State Department has 
not even listened to those tapes. I mean that is evidence. That 
is evidence. Of course there is a due process stream that needs 
to be followed, but when you get multiple allegations with 
streams of evidence, it begs the question why are we looking 
the other way and acting as if none of it is credible.
    Mr. Shalita. With all due respect, Mr. Chairman, what the 
newspaper in Canada says is not evidence. It is not a legal 
institution.
    Ms. Bass. Well, no, let me just ask you. Let me just ask 
you this. And I will get to you. But let me just ask you this. 
As an investigator, if there are tapes would you then want to 
have a tape of the voice of the person who the allegation is 
made about? Because there is enough science to prove whether or 
not it is the same person. It doesn't seem to be that deep.
    Mr. Shalita. I have not listened to the tape. I have read 
the transcript in its entirety.
    Ms. Bass. I know. I am just saying as an investigator 
wouldn't that conclude?
    Mr. Shalita. I would want the real voice of Colonel Dan 
Munyuza to compare with----
    Ms. Bass. Right. That is what I am saying.
    Mr. Shalita [continuing]. What is alleged this gentleman 
has.
    Ms. Bass. Right. So if that was done, wouldn't we be able 
to know?
    Mr. Shalita. If it was done, yes. I would absolutely agree 
with you.
    Ms. Bass. Okay. I mean it is just hard to believe that 
there is just allegations and nothing has ever been proven.
    Mr. Shalita. Well, for instance, Mr. Higiro has made an 
allegations that Rwandans are being flown to Texas. I live in 
Austin, Texas. I want to go on the record and challenge him. 
Tell me where there is Rwandans.
    Ms. Bass. Okay. Well, actually I would like to just ask Ms. 
Margon--for my part if you don't mind, Mr. Chair, I will 
conclude my questions by just asking you to respond to both 
sides of what I asked.
    Ms. Margon. Sure. I also wanted to respond to your point 
about what Rwandans want in the next election. Human Rights 
Watch hasn't done an investigation into what happened in South 
Africa, and as I understand it the South Africans have 
undertaken an investigation themselves. The outcome remains 
unknown to date, so we do still have that. I think what we are 
looking at as an organization whose currency is their 
independent research is that we have repeatedly documented a 
climate of fear and incredibly violent tactics that have been 
used against dissenters in Rwanda. It is a government that is 
maintaining its power through a strategy and approach of that 
type.
    We have seen it with disappearances that we documented from 
March until November 2014, which we put out in a report on 
which the State Department also commented on. That is not a new 
thing. It is still happening to some degree although it seems 
to be at a lesser one. But repeatedly the decimation of 
independent voices is not simply because there wasn't money for 
it or because people felt they could do better things like go 
into business. It was because they were afraid for their lives 
and they have fled the country, many still living in fear, 
outside borders.
    And so while we haven't done research on this specific 
issue, I did want to put it within the broader context of what 
we are looking at, which is a government that is maintaining a 
very tight, and in some cases very aggressive and violent, grip 
on power. In terms of your questions about what Rwandans want, 
I think it is hard to tell. Nobody knows what Rwandans want 
because they are afraid to speak out. If you look at the past 
elections of the President, it is, I think it was 76 percent 
for the last Parliamentary elections in 2013. And then in 2010 
it was about 93 percent in favor of Kagame. Who knows how many 
of those people actually wanted the President and his party to 
win? Most people I would say based on our research are too 
afraid to do anything else.
    You are looking at an environment that may not on election 
day, let us say, be free and fair as we start to think about 
the 2017 elections. But it is an overarching context which we 
have seen in other countries on the continent, including as we 
will see this weekend in Ethiopia, an overarching election 
environment which is not at all conducive to a legitimately 
free and fair election. It is important to think about that 
when you think about what the people of Rwanda are doing and 
saying.
    Ms. Bass. I am sorry. Just, I mean a little comparison 
though. The Ethiopian diaspora is very active and there is also 
a lot in Ethiopia that I think is very well known. So I think 
with Rwanda, unless I am just not aware of it, there just 
doesn't seem to be that level of activity. I don't know if 
whether it is social media or not. Maybe the Rwandan diaspora 
is active in other countries. I don't--yes.
    Mr. Himbara. Let me tell you why it is very difficult to be 
active while we are in communities. It is very difficult for us 
to be active.
    Ms. Bass. In Rwanda.
    Mr. Himbara. Even here. So now I am going to say something 
that I held back because I will cry, but also because it will 
put my brother into danger.
    Mr. Smith. Maybe you shouldn't.
    Ms. Bass. You made your point. Your point is clear.
    Mr. Himbara. But I think I need to put it out here on the 
record anyway.
    Ms. Bass. I would prefer you not. Let me just move on.
    Mr. Shalita, then I will come back to you.
    Mr. Shalita. Is the Rwandan diaspora very active? Very 
active. For the record, for the last 3 years every September 
more than 5,000 Rwandans meet on Rwanda Day. Is that active or 
what?
    Ms. Bass. Where?
    Mr. Shalita. The last year was in Atlanta. The year before 
that was in Chicago. The year before was in Boston. This 
addresses the fact that we are very active. I have been very 
active on Rwandan issues probably before Mr. Higiro was born. 
Look at my blog.
    Ms. Bass. I will.
    Mr. Shalita. Look at the social media----
    Ms. Bass. All right.
    Mr. Shalita [continuing]. Of Rwandans exchanging their 
views on the country. And they are all not supportive of 
President Kagame. And most of these come from Rwanda, for the 
record.
    Ms. Bass. Okay. Let me go back and allow you to finish and 
then I am done.
    Ms. Margon. The only point I was going to make is that I 
think Ethiopia is a much larger country with a larger 
diaspora--which happens to be centered in Washington--which may 
be part of the reason you hear from them more regularly. But 
also I do think when you look from our objective perspective, 
you do see similar issues of development success being put 
forward. And our attempt or our effort is not to undermine the 
successes that are real and important to the actual people who 
are receiving them, but to look at the other side of the coin 
and figure out how better to integrate the two for the long 
term gain of the country overall.
    Ms. Bass. Okay.
    Mr. Higiro. So can I say something? Compliment something?
    Ms. Bass. Yes, go ahead.
    Mr. Higiro. Just like I said before, Mr. Shalita whatever 
he sees, we see. Let me give you an example of what he is 
talking about. A few months in Belgium, Brussels, they had a 
conference of about 40 Presidents and Heads of State. President 
Obama inclusive. The only President that had demonstrations is 
Paul Kagame. There are two sides. One side singing and praising 
him, another side against him. And you ask yourself, what kind 
of specialty, why is Rwanda unique? Why is it that amongst 40 
heads of state one single President is having this? Think about 
it. What is wrong? Why does the Rwandans have to put a lot of 
effort in receiving Kagame wherever he goes? What is the 
problem?
    There is something called Rwanda Day. If you don't go there 
it is a problem. Then you never back home. That is one. Two, in 
Belgium now, I am going to give a specific example. If you are 
Rwandan and you probably have obtained the nationality, Belgian 
nationality, if you want to go to Rwanda you need an 
invitation. Just think about that. Do you know why? It is 
because they want to control, people in the diaspora, and 
connect them to where they are going. Why? Because they think 
people like us are sending messages to Rwanda. So they want to 
know who is from Belgium, where did he land? Which house is he 
staying in? As simple as that. I mean what are we talking 
about?
    Look at the region. This starts from Congo. What happened 
in Congo? How many times did we go to Congo? And Mr. Shalita 
should understand that I have the credibility to talk about 
this. I have served that state for a long time, since I was 
little. I grew up in that system. I know each and everything. I 
was in the Congo, for the record, once, twice. When we took 
over Congo in 1997 and fell to Kabila, the old Kabila, we were 
called back swiftly, and they relaunched again for a coup 
d'etat which didn't materialize. We ended up in Angola. We 
fought wars you can't even imagine. We fought our ally Uganda 
in Kisangani. You know that? What does the guy want from Congo, 
we have got Uganda.
    President Museveni has made peace with President Kagame 
because he was disturbing him. He was actually funding their 
opposition. President Kagame has publicly stated that he is 
going to hit President Kikwete of Tanzania when time comes. It 
is public information. So what are we talking about? It is all 
out there. It is not a secret. Thank you.
    Mr. Smith. We are going to have to conclude the hearing, 
but I just want to make a couple of final points. We will 
follow up on requesting that Kagame allow an investigative unit 
maybe under U.N. auspices or AU auspices that would go wherever 
the evidence takes them, and to interview without fear of 
retaliation those men and women that have been intimidated.
    I think, Ms. Margon, you make a very good point about the 
climate of fear, the use of violence. I remember Greg Simpkins 
and I on one trip to Darfur, before we got there we went to 
Ethiopia. We met with President Meles. It was soon after 
several people were gunned down in post-election violence in an 
election that was anything but free and fair. And we met with 
President Meles who was absolutely dismissive of the violence. 
Matter of fact, when we left I actually, and Greg and I worked 
very hard on this, wrote a bill called the Ethiopia Freedom, 
Democracy, and Human Rights Advancement Act with benchmarks. 
And when the House flipped to Democratic control, my ranking 
member and good friend and now sadly deceased, Donald Payne, 
took it up and it became his bill. It was Payne-Smith. First it 
was Smith-Payne.
    And the idea was that we have got to be serious about human 
rights. And I can think of no more important issue than 
protecting people from violence, beatings. I have heard of 
almost like a Dr. Jekyll-Mr. Hyde type of, the face that Kagame 
gives to the Western world and to Westerners versus what he 
does to his own people. And that is really very, very 
disconcerting especially since there is a seemingly a pattern 
of extrajudicial killings.
    So we need to get to the bottom of this. This subcommittee 
is committed to it. Again I think at great risk to yourselves 
you have come forward. Mr. Higiro, I just can't say how deeply 
I respect, and as well as you, both of you for coming forward. 
I am sure the other human rights groups would love to operate 
freely and in an unfettered fashion. You are not. You are 
trying and we all appreciate that. But there are risks to the 
people who bear witness to the truth, so thank you again for 
that work you are doing, Ms. Margon. We are going to follow up 
on this. I hope to hear back from the State Department on what 
they are doing.
    Again, Ambassador Jackson made some very good comments 
about their concerns, but we got no sense as to what the return 
mail showed when we raised these issues. How do we do it? He 
said one was done on the fringes of another of the African 
meetings. Here that doesn't cut it. This should be our 
Ambassador, this should be our top people and our mission in, 
as well as the Assistant Secretary and right up to the 
Secretary level, even President Obama, raising these issues 
face to face with details about individuals; otherwise human 
rights get short shrift.
    I have been in this Congress 35 years and I get so angry, 
and that is the only word to describe it, whether it be China 
or Rwanda or as it was even under the Bush administration in 
Ethiopia, when Meles was able to claim a robust commitment to 
peacekeeping but that doesn't provide a whitewash for serious 
human rights abuse. We welcome that that they are deploying 
peacekeepers, but it is not a whitewash and can never be so 
construed. So yes?
    Mr. Shalita. One final point, Mr. Chairman, and thank you 
for your leadership. I think this committee will be interested 
in finding out why Mr. Higiro was dishonorably discharged. Once 
you find that out, then, Mr. Chairman, ask yourself this 
question. Somebody who is dishonorably discharged, would this 
be the same individual given a task to go and commit an 
assassination?
    Mr. Smith. I want to just say very clearly that that needs 
to be taken with a grain of salt big-time. When you are the 
focus of a government retaliation or a death threat, I mean 
whistleblowers don't fare well anywhere whether it be the 
United Nations where many have been summarily dismissed.
    And I have held hearings and done work along those lines to 
protect those who speak out against corruption at the United 
Nations, or within our own U.S. Government. I mean we are 
always passing new laws, enhanced protection for whistleblowers 
because they get the back of the hand anywhere in the world 
including in the U.N. or the United States, and I would 
respectfully submit in Rwanda as well.
    Again we have credible newspapers. The BBC is a credible 
news media organization that have looked into this and can now 
with articles and recordings, they get retaliated against too. 
So let us not forget that. That Dr. Jekyll and Mr. Hyde, if 
there are death squads being deployed to kill the diaspora and 
the political opponents or as you said, Mr. Himbara, then phase 
two, even others, we need to get to the bottom of it. And we 
owe it to the Rwandans who deserve not a country where there is 
a climate of fear but where there is a robust democracy where 
human rights and economic prosperity go hand in hand. So thank 
you for your testimonies. The hearing is adjourned.
    [Whereupon, at 4:33 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
                   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
                   
                   

                                 [all]
</pre></body></html>
